                         OFFICE OF
                  THE INSPECTOR GENERAL

                      U.S. NUCLEAR
                 REGULATORY COMMISSION

                            Audit of NRC’s Incident
                             Response Program

                     OIG–04-A-20      September 16, 2004



                           AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s website at:
             http://www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                          September 16, 2004




MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum/RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S INCIDENT RESPONSE
                            PROGRAM (OIG-04-A-20)


Attached is the Office of the Inspector General’s audit report titled, Audit of
NRC’s Incident Response Program.

The report reflects the results of our audit to determine whether NRC’s Incident
Response Program (1) is performed in a timely and effective manner, (2)
provides adequate support to licensees, and (3) maintains readiness and
qualifications of staff. The audit found that, while NRC has improved its program
since the accident at Three Mile Island on March 29, 1979, more needs to be
done. Specifically, NRC’s Incident Response Program is performed
inconsistently, is not fully understood by licensees, and does not maintain a well
defined process for demonstrating staff are qualified and ready to respond.

This report makes 17 recommendations to address the issues identified and to
enhance management controls.

During an exit conference on August 16, 2004, NRC officials provided comments
concerning the draft audit report and subsequently met with OIG staff to clarify
specific issues and to provide editorial suggestions. NRC officials reviewed the
modifications and opted not to submit formal written comments to this final
version of the report.

If you have any questions or wish to discuss this report, please call me at
415-5915 or Russ Irish at 415-5972.

Attachment: As stated

cc: W. Dean, OEDO
Distribution List

B. John Garrick, Chairman, Advisory Committee on Nuclear Waste
Mario V. Bonaca, Chairman, Advisory Committee on Reactor Safeguards
John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
Dennis K. Rathbun, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Patricia G. Norry, Deputy Executive Director for Management Services, OEDO
William F. Kane, Deputy Executive Director for Homeland Protection
  and Preparedness, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research
  and State Programs, OEDO
Ellis W. Merschoff, Deputy Executive Director for Reactor Programs, OEDO
Jacqueline E. Silber, Chief Information Officer
Michael L. Springer, Director, Office of Administration
Frank J. Congel, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Paul E. Bird, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
Office of Public Affairs, Region I
Office of Public Affairs, Region II
Office of Public Affairs, Region IV
                                                                               Audit of NRC’s Incident Response Program



EXECUTIVE SUMMARY

          BACKGROUND

                  On March 28, 1979, a severe accident occurred at the Three Mile Island (TMI) Unit 2
                  commercial nuclear power plant near Harrisburg, Pennsylvania resulting in damage
                  to the nuclear fuel core. The NRC’s 1979 response to the TMI accident has been
                  described as “ . . . flawed by poor communication, lack of defined leadership, and
                  unclear emergency plans.”1 NRC’s careful analysis of the events during those days
                  led to permanent and sweeping changes in how NRC regulates its licensees.

                  Federal Government-wide guidance2 provides for the delivery of Federal assistance
                  and resources to assist State and local governments overwhelmed by a major
                  disaster or emergency, an organized and integrated capability for response by
                  Federal agencies to peacetime radiological emergencies, and designates the Lead
                  Federal Agencies for coordinating the Federal response to radiological emergencies.
                  NRC is designated as the Lead Federal Agency for emergencies involving NRC-
                  licensed facilities and materials. As such, NRC is responsible for overseeing
                  activities onsite, independently assessing protective action3 recommendations made
                  by the licensee to State and local emergency management organizations or
                  recommending additional offsite protective actions, and coordinating Federal
                  assistance to conduct radiological monitoring and assessment.

          PURPOSE

                  This audit was conducted to determine whether NRC’s incident response program:

                             Ø is performed in a timely and effective manner,

                             Ø provides adequate support to licensees, and

                             Ø maintains readiness and qualifications of staff.

          RESULTS IN BRIEF

                  Licensees are responsible for safe operation of their facility and protection of nuclear
                  materials, and, State and local entities are responsible for implementing measures to
                  protect the public in the event of an emergency. However, effective performance of
                  NRC’s incident response program is critical to ensuring that proper actions are taken
                  to protect or minimize harm to the public health and safety and the environment
                  should an incident involving NRC-licensed facilities and materials occur. While NRC
                  has improved its incident response program since the TMI accident, more needs to
                  be done. Specifically, NRC’s incident response program

1
    How Three Mile Island Changed NRC, NUREG/BR-0066, NR&C (News Reviews Comment), dated March 2004.
2
 Federal Government-wide guidance includes the Robert T. Stafford Disaster Relief and Emergency Assistance Act, the
Federal Response Plan, the Federal Radiological Emergency Response Plan, and the Initial National Response Plan.
3
 Protective action means an activity conducted in response to an incident or potential incident to avoid or reduce radiation
dose to members of the population.


                                                             i
                                                       Audit of NRC’s Incident Response Program




         A. is performed inconsistently across regions and from exercise to exercise (see
            page 4),

         B. is not fully understood by licensees (see page 15), and


         C. does not maintain a well-defined process for demonstrating staff is qualified
            and ready to respond (see page 19).

      These issues exist because NRC’s incident response staff has been engaged in
      supporting revisions and improvements to Government-wide incident response
      plans, and because NRC lacks 

         Ø incident response performance standards,

         Ø an objective mechanism for evaluating performance during exercises, and

         Ø a well-defined agency-wide incident response training program.

      In light of the current threat environment, additional management focus is warranted
      to improve the effectiveness of NRC’s incident response program. Although the
      current incident response program provides a framework for managing the agency’s
      response to incidents involving NRC-licensed facilities or materials, the program
      should be strengthened to better inform licensees about NRC’s incident response
      roles and responsibilities, and better define training and qualifications programs.
      This will improve the overall effectiveness and efficiency of the incident response
      program and provide assurance that all aspects of the program are coordinated.

RECOMMENDATIONS

      A Consolidated List of Recommendations appears on page 27 of this report.

OIG ANALYSIS OF AGENCY COMMENTS

      At an exit conference with agency senior executives held on August 15, 2004, NRC
      officials generally agreed with the report findings and recommendations but
      requested an additional meeting with Office of the Inspector General (OIG) staff for
      clarification on specific issues. Subsequent to that meeting, OIG met with agency
      managers and staff to address editorial suggestions, discuss specific points of
      concern, and provide clarification on other points. Following that meeting, OIG
      revised the report, as appropriate. After reviewing the revised draft report, agency
      officials met again with OIG on August 31, 2004 and expressed agreement with the
      findings and recommendations and chose not to provide a formal written response
      for inclusion in the report.




                                        ii
                                                 Audit of NRC’s Incident Response Program



ABBREVIATIONS AND ACRONYMS


       DHS     U.S. Department of Homeland Security
       FRERP   Federal Radiological Emergency Response Plan
       FRMAC   Federal Radiological Monitoring and Assessment Center
       FRP     Federal Response Plan
       MD      Management Directive
       NRC     U.S. Nuclear Regulatory Commission
       NSIR    Office of Nuclear Security and Incident Response
       OIG     Office of the Inspector General
       TMI     Three Mile Island
       U.S.    United States




                                   iii
                               Audit of NRC’s Incident Response Program




[Page intentionally left blank.]




              iv
                                                                                     Audit of NRC’s Incident Response Program



TABLE OF CONTENTS

    EXECUTIVE SUMMARY..................................................................................................... i
    ABBREVIATIONS AND ACRONYMS ............................................................................... iii
    I.        BACKGROUND......................................................................................................1
    II.       PURPOSE ..............................................................................................................3
    III.      FINDINGS ..............................................................................................................4
                   A. INCIDENT RESPONSE PROGRAM IS PERFORMED INCONSISTENTLY ...... ............ 4

                   B. LICENSEES LACK AN UNDERSTANDING OF NRC'S INCIDENT RESPONSE
                      PROGRAM ..................................................................................................15

                   C. NRC’S PROCESSES TO QUALIFY STAFF AND ENSURE READINESS TO RESPOND
                      ARE NOT W ELL DEFINED .............................................................................19

    IV.       CONSOLIDATED LIST OF RECOMMENDATIONS .............................................27
    V.        AGENCY COMMENTS.........................................................................................29


    APPENDICES
    A. Scope and Methodology .............................................................................................31
    B. Changes in NRC’s Regulation of Nuclear Power Plants Following the Three Mile
       Island Accident...........................................................................................................33
    C. NRC’S Incident Response Program............................................................................35
    D. Incident Response Functional Areas...........................................................................39
    E. OIG Analysis of NRC’s Incident Response Performance ............................................43
    F. Summary of Notable Inconsistent Incident Response Performance
       Observed During Incident Response Exercise ............................................................56




                                                               v
                           Audit of NRC’s Incident Response Program




[Page intentionally left blank.]




          vi
                                                                            Audit of NRC’s Incident Response Program



I. BACKGROUND

THREE MILE ISLAND ACCIDENT
                                            On March 28, 1979, a severe accident occurred at the Three
ddd 1: Three Mile Island Nuclear            Mile Island (TMI) Unit 2 commercial nuclear power plant
Power Plant                                 near Harrisburg, Pennsylvania resulting in damage to the
                                            nuclear fuel core. According to the U.S. Nuclear Regulatory
                                            Commission (NRC) Chairman, at that time, few experts
                                            thought that such a severe accident was ever likely to
                                            happen. NRC had put into place its commercial reactor
                                            regulatory program, based on the concept of defense-in-
                                            depth4. Moreover, the commercial nuclear power industry
                                            was perceived as having an outstanding safety record.

                                            The NRC’s 1979 response to the TMI accident has been
                                            described as “ . . . flawed by poor communication, lack of
                                            defined leadership, and unclear emergency plans.”5 NRC’s
    Three Mile Island Nuclear Power Plant   careful analysis of the events during those days led to
    Source: NRC Website                     permanent and sweeping changes in how NRC regulates its
                                            licensees. (For a description of changes that occurred at
                                            NRC see Appendix B).

                    As a result, NRC now maintains an incident response program to ensure that 

                        Ø the agency maintains its readiness to respond to an incident involving
                          NRC-regulated activities that has the potential to threaten the public or
                          the environment,

                        Ø the response is compatible with licensee responsibilities,

                        Ø the response supports State and local governments’ emergency response
                          functions, and

                        Ø the response is coordinated with the responses of other Federal
                          agencies.

INCIDENT RESPONSE LEGISLATION AND GUIDANCE

                    Congress established statutory authority for the Federal Government to respond
                    to disasters that exceed State and local capabilities.6 The Robert T. Stafford
                    Disaster Relief and Emergency Assistance Act (the Stafford Act), as amended,
                    established a means for the Federal Government to provide assistance to State
4
  Defense-in-depth is a design and operational philosophy with regard to nuclear facilities that calls for multiple layers
of protection to prevent and mitigate accidents. It includes the use of controls, multiple physical barriers to prevent
release of radiation, redundant and diverse key safety functions, and emergency response measures.
5
    How Three Mile Island Changed NRC, NUREG/BR-0066, NR&C (News Reviews Comment), dated March 2004.
6
  Since the September 11, 2001 attacks on the World Trade Center and the Pentagon, much has been done to
improve prevention, preparedness, response, recovery, and mitigation capabilities and coordination processes across
the country. Consequently, much of the Federal incident response guidance was under revision during the course of
this audit.

                                                            1
                                                                          Audit of NRC’s Incident Response Program



                  and local governments during disasters that exceed their capabilities. The
                  Federal Response Plan (FRP) supports implementation of the Stafford Act and
                  provides the mechanism for coordinating delivery of Federal assistance and
                  resources to assist State and local governments overwhelmed by a major
                  disaster or emergency. In October 2003, the Initial National Response Plan 7was
                  approved as an interim plan designed to help develop a unified approach to
                  domestic incident management across the Nation.

                  The Federal Radiological Emergency Response Plan (FRERP) maintained by
                  the Federal Emergency Management Agency, provides for an organized and
                  integrated capability for response by Federal agencies to peacetime radiological
                  emergencies. It also designates the Lead Federal Agencies for coordinating the
                  Federal Response to radiological emergencies. Under the FRERP, NRC is
                  designated as the Lead Federal Agency for emergencies involving NRC-licensed
                  facilities and materials. As such, NRC is responsible for overseeing activities
                  onsite, independently assessing protective action8 recommendations made by
                  the licensee to State and local emergency management organizations or
                  recommending additional offsite protective actions, and coordinating Federal
                  assistance to conduct radiological monitoring and assessment.

                  NRC issued Management Directive (MD) 8.2, NRC Incident Response Program
                  to

                      Ø carry out its Lead Federal Agency responsibilities under the FRERP

                      Ø maintain its readiness to respond to an incident involving NRC-regulated
                        activities that has the potential to threaten the public or the environment,

                      Ø establish and implement NUREG-0728, NRC Incident Response Plan,

                      Ø identify organizational responsibilities for providing assistance, and

                      Ø commit staff.

                  The NRC Incident Response Plan describes the functions of the NRC during an
                  incident and the actions that comprise its incident response.

                  NRC published NUREG-0845, Agency Procedures for the NRC Incident
                  Response Plan in February 1983 to delineate, among other things, the manner in
                  which each planned response function is performed. As NRC gained experience
                  in incident response and captured lessons learned, the agency developed team-
                  and position-specific procedures within the framework of NUREG-0845.
                  Because team- and position-specific procedures have evolved over time, the
                  agency has determined that NUREG-0845 is not needed and has begun
                  removing reference to it in the agency’s incident response guidance (e.g., the
                  NRC Incident Response Plan). The NRC incident response program approach is

7
 The Initial National Response Plan strengthens America's emergency response process by harmonizing existing
Federal response plan activities with incident management leadership responsibilities assigned by President Bush to
Secretary Ridge through Homeland Security Presidential Directive 5.
8
  Protective action means an activity conducted in response to an incident or potential incident to avoid or reduce the
radiation dose to members of the population.
                                                          2
                                                                         Audit of NRC’s Incident Response Program



                      Figure 1 -Incident          further described in NUREG/BR-0230, RCM-96,
                     Response Guidance            Response Coordination Manual, Section Q, Concept
                                                  of Operations with Organization Charts – NRC
                      Robert T. Stafford Act      Incident Response. Figure 1 illustrates the hierarchy
                                                  of Government-wide incident response guidance and
                                                  NRC incident response guidance.
                     Federal Response Plan
                                                  NRC's Office of Nuclear Security and Incident
                                                  Response (NSIR) develops and directs the NRC
                                                  program for response to incidents. NSIR is the
                      Federal Radiological        agency incident response interface with the U.S.
                    Emergency Response Plan
                                                  Department of Homeland Security (DHS) and other
                                                  Federal agencies. Within NSIR, the Incident
                                                  Response Directorate (1) develops and directs
                     NRC Incident Response        implementation of the policies and programs for the
                       Program (MD 8.2)
                                                  agency’s response to incidents involving licensed
                                                  facilities and materials and (2) coordinates NRC’s
                                                  incident response program with Federal, State, and
                                                  local governments and licensees. For a more detailed
                     NRC Incident Response
                      Plan (NUREG-0728)           description of NRC’s Incident Response Program, see
                                                  Appendix C.

                                               Title 10, Code of Federal Regulations, requires NRC
                    Agency Procedures for the  and Agreement State9 licensees to notify the NRC of
                     NRC Incident Response
                       Plan (NUREG-0845)       emergency events involving commercial nuclear
                                               facilities or licensed materials. During an incident
                                               involving NRC-regulated facilities or materials, the
                                               licensee or certificate10 holder is at all times
                 responsible for controlling the material, protecting against its release, and
                 mitigating the consequences of the incident. Licensees of regulated facilities are
                 also responsible for providing appropriate protective action recommendations to
                 State, local, and tribal officials.


II. PURPOSE

                 This audit was conducted to determine whether NRC’s incident response
                 program:

                             Ø is performed in a timely and effective manner,

                             Ø provides adequate support to licensees, and

                             Ø maintains readiness and qualifications of staff.

9
  An Agreement State is any State that has signed an agreement with NRC allowing the State to regulate the use of
radioactive materials (except at Federal agencies, commercial nuclear power plants, and those authorized to possess
a critical mass of Special Nuclear Material) within that State. Since NRC regulations on reporting incidents apply
directly to Agreement State licensees, references to “licensees” in this paper refer to NRC and Agreement State
licensees.
10
  A certificate means a certificate of compliance issued pursuant to Title 10, Code of Federal Regulations, Part 76
Certification of Gaseous Diffusion Plants.
                                                         3
                                                          Audit of NRC’s Incident Response Program




          Appendix A provides a more detailed description of the audit’s scope and
          methodology.


III. FINDINGS

          Licensees are responsible for safe operation of their facility and protection of
          nuclear materials, and, State and local entities are responsible for implementing
          measures to protect the public in the event of an emergency. However, effective
          performance of NRC’s incident response program is critical to ensuring that
          proper actions are taken to protect or minimize harm to the public health and
          safety and the environment should an incident involving NRC-licensed facilities
          and materials occur. While NRC has improved its incident response program
          since the TMI accident, more needs to be done. Specifically, NRC’s incident
          response program

                A. is performed inconsistently across regions and from exercise to exercise,

                B. is not fully understood by licensees, and

                C. does not maintain a well defined process for demonstrating staff is
                   qualified and ready to respond.

          These issues exist because NRC’s incident response staff has been engaged in
          supporting revisions and improvements to Government-wide incident response
          plans, and because NRC lacks 

                Ø incident response performance standards,

                Ø an objective mechanism for evaluating performance during exercises, and

                Ø a well defined agency-wide incident response training program.

          In light of the current threat environment, additional management focus is
          warranted to improve the effectiveness of NRC’s incident response program.
          Although the current incident response program provides a framework for
          managing the agency’s response to incidents involving NRC-licensed facilities or
          materials, the program should be strengthened to better inform licensees about
          NRC’s incident response roles and responsibilities, and better define training and
          qualifications programs. This will improve the overall effectiveness and efficiency
          of the incident response program and provide assurance that all aspects of the
          program are coordinated.

     A. INCIDENT RESPONSE PROGRAM IS PERFORMED INCONSISTENTLY

          In the post-9/11 environment, ensuring timely and effective incident response is a
          critical element of NRC's mission to protect the public health and safety.
          However, NRC's incident response program is (1) performed inconsistently
          across regions and from exercise to exercise, and (2) some areas need
          improvement. These conditions exist because NRC lacks

                                             4
                                                                       Audit of NRC’s Incident Response Program



                          Ø standards for performance,

                          Ø an objective methodology for evaluating incident response
                            performance, and

                          Ø does not conduct periodic reviews of region based incident response
                            programs.

                 Additional management focus is warranted to assure that essential incident
                 response functions are completed effectively and efficiently. In light of the
                 recently issued 9-11 Commission11 statement12 that the 9/11 al Qaeda plot had
                 targeted nuclear plants, it is imperative that NRC’s incident response be
                 consistent, regardless of the type, location, cause, size, or complexity of an
                 incident.

                 Background

                 NRC has established policies, plans and procedures to ensure that incident
                 response programs are coordinated and standardized and that headquarters and
                 regional personnel are sufficiently trained to respond effectively as members of
                 headquarters response, region based, and site teams. NUREG-0845, Agency
                 Procedures for the NRC Incident Response Plan delineates

                     Ø the manner in which each planned response function is performed,

                     Ø the criteria for making response decisions, and

                     Ø the information and other resources needed during a response.

                 NUREG-0845 describes 20 functional areas that detail response functions and
                 specific tasks for the appropriate team and/or position. These procedures (1)
                 assist responders in performing response functions and making necessary
                 decisions; (2) provide a foundation for the training of response personnel; and (3)
                 are a ready reference or reminder checklist for technical team members and
                 managers during a response. For a complete list of the functional areas, see
                 Appendix D. The NRC incident response program approach is further described
                 in NUREG/BR-0230, RCM-96, Response Coordination Manual, Section Q,
                 Concept of Operations with Organization Charts-NRC Incident Response.

                 1. Inconsistencies in Incident Response Performance Exist

                 NRC conducts incident response exercises to practice, learn, and assess the
                 response procedures and to confirm and maintain the capabilities of NRC’s
                 response personnel. Office of the Inspector General (OIG) auditors observed
                 NRC's incident response performance during one incident response exercise in

11
  The National Commission on Terrorist Attacks Upon the United States (also known as the 9-11 Commission) is an
independent, bipartisan commission created by congressional legislation to prepare a full and complete account of
the circumstances surrounding the September 11, 2001 terrorist attacks, including preparedness for, and the
immediate response to, the attacks.
12
 Outline of 9/11 Plot, Staff Statement No. 16, published on the 9-11 Commission website (http://www.9-
11commission.gov/hearings/hearing12/staff_statement_16.pdf ), June 16, 2004
                                                        5
                                                                       Audit of NRC’s Incident Response Program



                 each of the agency’s four regions. Incident response performance for each
                 exercise was compared against NUREG-0845 incident response functions.
                 Within each function, NUREG-0845 defines specific tasks for the appropriate
                 team and/or position. For instance, under Function 6, Enter Initial Activation
                 Mode, tasks include, but are not limited to, the following:

                     Ø personnel assume emergency organization titles,

                     Ø pre-organized headquarters and regional response teams combine
                       capabilities of specialists from various organizational units, and

                     Ø regional personnel arriving at the site establish liaison with counterparts.

                 Overall, OIG observed NRC's incident response performance in 384 areas.
                 Based on these observations, OIG noted that NRC met performance
                 expectations in 315 areas, but did not meet performance expectations in 69
                 instances as summarized in the following table. (Shaded boxes reflect those
                 instances where performance expectations were not met. For additional results
                 by exercise, see Appendix E.)

                                                  TABLE I

         Summary of OIG’s Observations of NRC’s Incident Response Performance
                                                                   Instances of Performance Expectations Not Met
                                                             Exercise A       Exercise B     Exercise C     Exercise D

Function 1: Maintain Response Capability                                   Discussed under Finding C
Function 2: Man Emergency Communications Systems                   0            2            0                 0
Function 3: Evaluate and Categorize Initial Information            0            1            0                 0
Function 4: Decide to Escalate The NRC Response                    0            1            0                 3
Function 5: Enter Standby Mode                                     0            1            0                 2
Function 6: Enter Initial Activation Mode                          5            4            0                 3
Function 7: Enter Expanded Activation Mode                         0            3            0                 0
Function 8: Enter Deactivating Mode                                0            3            0                 1
Function 9: Evaluate Incident and Plant Status                     1            2            0                 2
Function 10: Evaluate Licensee Actions                             1            1            0                 2
Function 11: Project Incident Consequences and Plant               1            1            0                 1
Status
Function 12: Advise, Assist, or Direct Licensee                    1             0             0               3
Function 13: Request Other-Agency Support                          0             0             0               0
Function 14: Maintain Liaison with Congress, the White             0             0             0               0
House, and Other Federal, State, and Local Agencies
Function 15: Inform Public and Monitor Public Information          0             3             0               4
Function 16: Recommend Protective Actions for Public               4             4             1               0
Function 17: Provide Administrative and Logistical Support         2             0             0               5
Function 18: Decide to Deescalate                                  0             1             0               0
Function 19: Review, Investigate, and Document Response            0             0             0               0
Actions
Function 20: Recover                                               0             0             0               0

Total                                                             15            27             1              26




                                                       6
                                                                        Audit of NRC’s Incident Response Program




                 NRC uses an informal approach for evaluating and improving the incident
                 response program, resulting in inconsistencies in performance in many areas.
                 The most notable inconsistencies occurred when (a) making the transition from
                 one activation mode to another (i.e., Functions 5, 6, 7 and 8), (b) evaluating
                 licensees actions (i.e., Function 10), projecting incident consequences and plant
                 status (i.e., Function 11) and endorsing licensee-issued protective actions and/or
                 recommending protective actions for the public (i.e., Function 16), and (c)
                 informing the public and monitoring public information (i.e., Function 15).

                          a. Making Transitions from One Activation Mode to Another (See
                             Appendix F, page 56)

                 NRC experienced problems in this area in 22 instances. When making the
                 transition from one incident response mode to another, NRC experienced
                 problems with (1) evaluating initial information, (2) identifying problems and
                 trends, (3) beginning specific analyses, and (4) transferring authority from
                 headquarters to the site team. For instance, when entering initial activation
                 during one exercise, NRC headquarters’ responders asked the licensee to
                 consider declaring a general emergency when members of the protective
                 measures team13 determined it was not warranted. Asking the licensee to
                 consider declaring a general emergency before consulting with the protective
                 measures team undermined the intended interrelationships of the incident
                 response organization.

                          b. Evaluating Licensee Actions and Projecting Incident
                             Consequences and Plant Status (See Appendix F, page 56)

                 Performance expectations were not met in 16 instances. NRC’s performance
                 was inconsistent in (1) communicating with the licensee to obtain information
                 needed to assess plant status and evaluate licensees actions, (2) independently
                 assessing the licensee’s measures and (3) validating licensee’s protective action
                 recommendations. For instance, during one exercise, the NRC protective
                 measures team coordinator at the site stated that NRC concurred with the
                 licensee’s protective action recommendations based on a review of the
                 licensee’s process. However, NRC’s protective measures team at the site was
                 unable to produce any valid off-site dose projections throughout the exercise to
                 form a basis for an independent validation of the licensee’s recommendations.

                          c. Informing the Public and Monitoring Public Information (See
                             Appendix F, page 57)

                 In seven instances, NRC did not perform consistently in the area of informing the
                 public and monitoring public information. In one instance, NRC did not satisfy
                 the minimum staffing level to enter initial activation mode that requires a public
                 affairs officer to be positioned with the site team. NRC chose to stage the public
                 affairs officer in the region, rather than at the site. The regional staff attempted to

13
  NRC’s protective measures team ensures that public protective actions are adequate, assists the State(s) in the
interpretation of radiological data, provides consultation to the states on protective action recommendations, keeps
the NRC executives informed of radiological conditions and projections, requests other Federal agencies’ resources
and support, supports the response team in the region’s incident response center; and establishes and maintains the
communication links with counterparts.
                                                         7
                                                                   Audit of NRC’s Incident Response Program



                    use the telephone to stay in contact with their counterparts in the emergency
                    offsite facility and to receive and reply to questions from the press. However, this
                    system did not succeed. Because the public affairs officer was in the region
                    instead of the emergency offsite facility and the use of the telephone did not
                    succeed, NRC did not participate in press conferences and was unable to
                    respond to inquiries from the press.

                    Additional details on NRC’s inconsistent incident response performance can be
                    found in Appendices E and F.

                    NRC Lacks An Objective Mechanism for Evaluating Incident Response
                    Performance

                    Inconsistencies in performance exist because NRC's incident response program
                    lacks (1) standards and (2) an objective evaluation mechanism with acceptance
                    criteria for satisfactory performance resulting in inconsistency in approaches from
                    region to region.

                    NRC lacks an objective mechanism for evaluating its incident response
                    performance during an exercise because MD 8.2 does not include a requirement
                    to evaluate NRC's performance during exercises. Consequently, exercise
                    objectives rarely reflect NRC’s incident response operation performance criteria
                    and are not effectively used to evaluate performance. NRC staff said objectives
                    are used to determine the success of an exercise, are published before an
                    incident response exercise begins, and are published in a report identifying
                    whether the agency met the objectives. However, NRC informally evaluates
                    whether objectives are met during meetings that follow the exercises or through
                    e-mails sent to responders soliciting feedback. In most cases, discussions about
                    incident response performance are not structured by objectives and do not follow
                    a prescribed evaluation approach. Furthermore, performance is not evaluated
                    against performance standards or predefined criteria for successful achievement
                    of objectives. In fact, following one exercise, the executive team director began
                    the meeting by stating that the objectives had been met even though team
                    members did not discuss objectives. In contrast, one region used specific
                    objectives that were assigned to individual responders who evaluated
                    performance against pre-defined acceptance criteria.

                    During this audit, OIG used NUREG 0845 as the basis for determining whether
                    NRC met performance expectations for each function. While NUREG 0845 could
                    be used by the agency as the basis for developing performance standards, that
                    guidance is outdated. The agency has determined it is not needed and has
                    begun removing reference to it in incident response guidance.

                    Separate incident response programs maintained in each region also contribute
                    to inconsistent incident response performance. While MD 8.2 Handbook requires
                    NRC’s response to be standardized, it assigns responsibility to headquarters and
                    each regional office for maintaining their own procedures and training their own
                    responders. To confirm that the regional offices maintain an effective incident
                    response capability, MD 8.2 requires the Director of the Incident Response
                    Directorate14 to establish criteria and perform reviews. However, NRC does not

14
     Formerly, the Division of Incident Response Operations
                                                              8
                                              Audit of NRC’s Incident Response Program



routinely conduct these reviews. By assigning responsibility to each region
separately and not conducting periodic reviews of the regions’ response
capability, NRC cannot be sure its incident response is standardized across the
regions.

NRC also lacks a standardized, well-defined mechanism for evaluating individual
responders' performance during incident response exercises. At headquarters,
incident response team directors or coordinators informally evaluate individual
responders’ performance. Except for responders in the Incident Response
Directorate, headquarters responders’ incident response expectations are not
included in their elements and standards. Additionally, performance is not
documented and is not reported to their supervisors. However, in some regions,
incident response expectations are documented in each responder’s elements
and standards and responders are evaluated against them. A standardized,
well-defined mechanism for evaluating responder’s performance during exercises
is needed to ensure a comprehensive, coordinated and effective agency-wide
incident response program.

RECOMMENDATIONS

OIG recommends that the Executive Director for Operations:

1.   Establish a defined agency-wide incident response plan that includes
     standards for performance, delineation of the conduct of exercises and drills,
     and a well-defined objective mechanism for evaluating incident response
     during exercises.

2.   Revise MD 8.2, NRC Incident Response Program Handbook to require an
     evaluation of incident response performance following each exercise.

3.   Update NUREG 0845, Agency Procedures for the NRC Incident Response
     Plan, or incorporate relevant portions into other agency procedures.

4.   Periodically review regional incident response programs to ensure NRC’s
     Incident Response Program is carried out consistently across the agency.

5.   Establish a well-defined process for giving performance feedback to
     responders.

2. Improvement is Needed in Specific Areas

Much has been done to improve NRC’s incident response program since the
Three Mile Island accident. However, in light of the 9/11 terrorist attacks, more
improvement is needed in the following areas:

        a. exercising deployment of incident response personnel,

        b. handling events involving multiple sites,

        c. handling protracted events, and



                                 9
                                                                        Audit of NRC’s Incident Response Program



                          d. defining the response to events at fuel cycle facilities or events
                             involving nuclear materials in the NRC Incident Response Plan.

                 These improvements are needed to ensure that, regardless of the type, location,
                 cause, size or complexity of the incident, NRC works effectively and efficiently to
                 meet its incident response expectations.

                               a. Deployment of Incident Response Personnel Not Regularly
                                  Exercised

                 NRC often pre-stages15 responders for exercises rather than practice their
                 deployment. This practice does not effectively test the efficacy of the agency’s
                 deployment phase of an exercise. NRC has chosen to pre-stage partly because
                 experience in responding to 9/11 and other real emergencies has given
                 management confidence that staff will deploy effectively. Therefore, the benefits
                 gained from exercising that phase of a response, in management’s opinion, do
                 not justify the effort.

                 During the four exercises observed, OIG noted that in one instance,
                 headquarters incident response staff assembled in the operations center prior to
                 the start of the exercise. Responders staged their procedures and equipment,
                 activated radiological, chemical and meteorological computer programs and
                 established communication with counterparts.

                 The regions also pre-staged responders prior to the start of each exercise.
                 Specifically, all regions simulated dispatch of a site team for exercises observed.
                 For instance, one region gathered at the commercial power reactor site and
                 simulated a gathering to put a site team together and later simulated arrival at the
                 site. Responders in another region gathered in a hotel and reviewed procedures
                 until they received notification to report to the site.

                 In contrast, while not done during exercises observed by OIG, one region leases
                 an aircraft to periodically exercise deployment. The region’s management said
                 that the effectiveness of exercising with the aircraft is only as good as the staff’s
                 understanding of the logistics (e.g., which airport will be used, where should
                 responders go when they arrive at the airport, what materials and equipment are
                 transported on the plane, etc.). According to another regional manager, using
                 the jet to exercise deployment ensures the aircraft strategy will work.

                 While deployment has been exercised in some regions, during the course of this
                 audit, the agency pre-staged responders for all exercises observed. OIG
                 recognizes that pre-staging is beneficial in many ways. However, by pre-staging
                 responders for all exercises observed, NRC did not test the procedures for
                 deploying response teams. Without periodically exercising deployment, NRC
                 does not have assurance that incident response teams could mobilize in a timely
                 and efficient manner.




15
  Pre-staging, as used in this report, means that personnel are dispatched and in place ready to respond before
emergency exercises begin.
                                                        10
                                                                          Audit of NRC’s Incident Response Program




         RECOMMENDATION

                  OIG recommends that the Executive Director for Operations:

                  6.   Exercise the deployment of headquarters and regional response staff as part
                       of the agency’s Incident Response Program.

                               b. NRC’s Plan to Respond to Serious Events Involving Multiple
                                  Sites Needs Improvement

                  NRC's incident response strategies and procedures for handling serious events16
                  that may occur simultaneously at multiple sites17 (multiple events) needs
                  improvement because the incident response organization is not designed to
                  handle multiple events. Furthermore, during OIG’s observations of the agency’s
                  response to the blackout and other exercises, some response facilities and
                  equipment were not designed to handle multiple events. While improvements to
                  facilities and equipment were implemented during the course of this audit, the
                  effectiveness of these improvements to support multiple events had not been
                  tested during an exercise or a real incident.

                  NRC's incident response center is equipped with an Emergency Response Data
                  System that electronically receives plant data transmitted from NRC-licensed
                  nuclear plants to NRC's headquarters, the regions, and the licensees' emergency
                  offsite facilities. The Emergency Response Data System transmits essential
                  information needed by the incident response organizations to diagnose the plant
                  emergency conditions and to execute their responsibilities under emergency
                  conditions. NRC's headquarters incident response center can only receive plant
                  data from four plants at the same time through this system. However, while each
                  regional office has the capability to receive data transmitted through Emergency
                  Response Data System, NRC has not developed strategies and procedures to
                  parse out responsibility to regional offices to handle multiple events.

                  On August 14, 2003, an electrical outage (the blackout) occurred across a large
                  portion of the northeast United States. During the blackout, nine U.S. nuclear
                  power plants were affected. Eight of these plants, along with one plant that was
                  already shut down, lost offsite power. Although the onsite emergency diesel
                  generators functioned to maintain safe shut down conditions, this event was
                  significant in terms of the number of plants affected and the duration of the power
                  outage.




16
  For the purpose of this report, the term “serious events” refers to events involving NRC-licensed facilities and
materials that are classified as site area emergencies or general emergencies (see Appendix C for classification of
events).
17
   For the purpose of this report, the term “multiple sites” means events that occur simultaneously at more than four
sites.
                                                         11
                                                                          Audit of NRC’s Incident Response Program



                  As events unfolded, each plant had a different set of circumstances. To track the
                  plant status at each plant, NRC’s reactor safety team18 developed a paper-based
                  matrix because the white boards that existed during this event could not display
                  plant status for nine plants. While none of the incidents at the nine plants
                  escalated beyond the unusual event level (see Appendix C for description of
                  event classifications, page 35), the situation exposed a vulnerability of NRC's
                  incident response program. Had the blackout resulted in more than four plants
                  declaring an alert (due to failure of their on-site power sources), NRC would not
                  have been able to receive data through the Emergency Response Data System
                  for all affected plants and would have been challenged to monitor each plant’s
                  status. The remaining plants' data would either be sent to the regions or
                  transmitted through telephone, facsimile, or e-mail transmissions.

                  Additionally, both the headquarters’ reactor safety team and the protective
                  measures team would have difficulty responding to multiple serious events.
                  During the blackout, the reactor safety team area at NRC headquarters was not
                  designed to display or post plant status summaries for multiple events. Since the
                  August 2003 blackout, NRC has implemented physical improvements to the
                  operations center display capabilities, including those in the reactor safety team
                  area and the protective measures team area. Furthermore, the protective
                  measures team organization only calls for one dose assessment analyst
                  (operator). While some protective measures positions could handle multiple
                  events, others require more support. Consequently, should multiple events
                  occur, an incident response team coordinator said that he would not feel
                  comfortable giving an operator of the Radiological Assessment System for
                  Consequence Analysis two dose assessments at once.

                  Because NRC's incident response facilities, equipment, and organization were
                  not designed to handle multiple events, NRC experienced challenges in gaining
                  an extent of condition at the start of the response to the blackout. One regional
                  manager said that the agency can handle multiple events, but it would not be
                  easy. According to this manager, headquarters would have to parse out
                  responsibility for responding to the incidents to the regions. This manager said
                  that NRC should develop a plan for how to share the response to multiple events
                  between headquarters and the regions. Improvements to strategies and
                  procedures for handling events at multiple sites are needed to assure that NRC’s
                  incident response for all events will be effectively coordinated and all actions to
                  minimize harmful effects of each incident will be efficiently performed.

                  RECOMMENDATIONS

                  OIG recommends that the Executive Director for Operations

                  7.   Develop team- and position-specific strategies and procedures for handling
                       events at multiple sites.


18
   NRC’s reactor safety team monitors the status of a reactor involved in an incident to (1) assess and predict reactor
core and containment conditions, assess licensee’s understanding of the incident, and confirm the classification; (2)
provide those performing assessments of protective measures with the information needed to make independent
assessments of off site consequences and protective action recommendations; (3) keeps the NRC response
management informed of plant conditions and future trends, and (4) provides technical and logistical support to the
licensee as requested.

                                                          12
                                                                                Audit of NRC’s Incident Response Program



                     8.    Periodically conduct incident response exercises involving multiple sites.

                                   c. NRC Procedures for Handling Protracted Events Need
                                      Enhancement

                     Enhancements to procedures and supporting technology are needed to assure
                     that NRC can adequately staff the incident response organization should an
                     event extend for longer than one shift (protracted events). Specifically, the
                     response coordination team procedures are not prescriptive for setting up work
                     shifts and the automated response computer system does not include a function
                     for scheduling staff for protracted events. While not prescribed by procedure,
                     soon after arriving at the incident response center in response to the blackout,
                     OIG observed team coordinators quickly begin to plan for watch bills (i.e., list of
                     staff to be called should additional shifts be needed) to ensure coverage.
                     However, this was an ad hoc solution that relies on the attentiveness of the team
                     coordinators. Adequate staff coverage for responding to an incident, regardless
                     of its duration, is essential to ensuring that incident response functions are
                     carried out effectively. Following the terrorist events of 9/11, NRC placed
                     incident response staff on shift work to staff its incident response operations
                     center. The operations center remained staffed above the normal two person
                     level for 24 hours a day for more than 14 weeks following 9/11.

                     RECOMMENDATIONS

                     OIG recommends that the Executive Director for Operations:

                     9. Incorporate procedures for handling protracted events into incident response
                        procedures.

                   10.    Develop a more systematic approach to scheduling staff to cover a response
                          to a protracted event.

                                   d. NRC Needs to Improve Its Capability to Respond to Events at
                                      Fuel Cycle Facilities or Involving Nuclear Materials

                     NRC reported in a March 1999, Incident Response Function Self-Assessment
                     Report that, " . . . NRC's incident response process and practices for material
                     events are less formal and less structured than those for power reactor facilities."
                     Even though the report included a recommendation to revise NUREG-0728, NRC
                     Incident Response Plan, to specifically address nuclear material incidents and
                     emergencies, NRC's recently revised the NRC Incident Response Plan includes
                     only minimal changes addressing nuclear material incidents.

                     NRC responders are not familiar with how NRC's response to an event at a fuel
                     cycle facility19 should function because the agency’s incident response plans for
                     these events are informal, unstructured, and exercised infrequently. Some NRC
                     staff said that reactors are the real hazard and believe that emergencies
                     involving materials or fuel cycle facilities are not as risky. Until the exercise at
                     one of only two gaseous diffusion plants on July 15, 2003, that plant had only
                     participated in one exercise with NRC sometime around 1997, but no one could

19
     A fuel cycle facility is involved in processing and fabrication of uranium ore into reactor fuel.

                                                               13
                                                                        Audit of NRC’s Incident Response Program



                 be certain as to when that occurred. The agency also said a regional office
                 participated in an exercise with that plant in 1999 as part of a Y2K exercise.
                 During the July 2003 exercise, confusion existed concerning the initial bounding
                 analysis20 resulting in large differences between the dose radiological and
                 chemical dispersion bounding analysis prescribed by the agency’s Response
                 Technical Manual Supplements21 and results produced by the Radiological
                 Assessment System for Consequence Analysis based on actual uranium
                 hexafluoride22 field data. This confusion occurred because responders did not
                 have adequate training on how to use the Response Technical Manual
                 Supplement.

                 Furthermore, resource materials for responding to fuel cycle facilities are
                 outdated. NRC uses Response Technical Manual Supplements for responding
                 to emergencies at the two gaseous diffusion plants. The Response Technical
                 Manual Supplements contain analyses for a number of incident scenarios from a
                 worst-case perspective to facilitate event assessment, to guide in determining
                 potential health impacts to site workers and the public, to assist in mitigation, and
                 to communicate the status of the incident to the executive team. As of July 1,
                 2003, the Response Technical Manual Supplements for one of the gaseous
                 diffusion plants was out of date (i.e., reflected the plant as operational even
                 though the plant was not). Using Response Technical Manual Supplements that
                 are out of date causes confusion among responders and could produce
                 inaccurate results.

                 While emergencies involving materials or fuel cycle facilities may not be as risky
                 as potential emergencies at commercial power reactors, they do pose risks to the
                 surrounding public. In 1986 an incident occurred at a uranium conversion facility
                 when an over-loaded cylinder was reheated and ruptured. The cylinder released
                 a dense cloud of uranium hexafluoride and resulted in the death of one
                 individual.23

                 On December 22, 2003, uranium hexafluoride leaked from a valve at a fuel cycle
                 facility. Because the facility monitors indicated a possible material release
                 offsite, local authorities evacuated approximately 25 people near the plant and
                 approximately 75 people remained sheltered in their homes. Therefore, given
                 potential risks to public safety and the quick evolution of emergencies at fuel
                 cycle facilities, establishing a more defined program that includes exercising with
                 these facilities on a more frequent basis is warranted.




20
 Bounding analysis is an analysis encompassing the spectrum of accident scenarios or conditions and produces the
most conservative results.
21
   The Response Technical Manual is a compilation of simple methods for estimating the possible consequences of
different kinds of radiological accidents. Supplements to the Response Technical Manual were prepared specifically
for gaseous diffusion plants.
22
   Uranium hexafluoride is a hazardous chemical with low level radioactivity associated with the uranium component
of the chemical.
23
  Potential Health Effects from Cylinder Accidents, Environmental Assessment Division of Argonne National
Laboratory, DUF6 Guide (http://web.ead.anl.gov/uranium/guide/health/accident/)
                                                        14
                                                       Audit of NRC’s Incident Response Program



     RECOMMENDATIONS

     OIG recommends that the Executive Director for Operations:

     11.       Revise the NRC Incident Response Plan to better define the incident
               response to emergencies involving regulated fuel cycle facilities and
               nuclear materials.

     12.       Conduct routine exercises with each NRC-regulated fuel cycle facility.

     13.       Update Response Technical Manual Supplements for gaseous diffusion
               plants.

     Summary

     NRC guidance requires the agency to ensure that headquarters and regional
     incident response programs are coordinated and standardized and that actions
     are taken to ensure a comprehensive, effective, and coordinated response.
     However, while much has been done to improve oversight of nuclear power
     plants since the TMI accident, inconsistencies exist and additional improvement
     in incident response is needed. These conditions exist because NRC lacks
     standards for incident response performance and a well-defined objective
     mechanism for evaluating incident response performance. In the post-9/11
     environment, where greater attention is given to the possible threat of terrorist
     attacks on nuclear plants, it is critical that NRC ensure a timely and effective
     incident response program to protect the public health and safety and the
     environment. NRC’s incident response program should be one cohesive
     program designed to respond to events regardless of the type, location, size,
     cause or complexity of the incident. Improvements to the NRC incident response
     program are needed to ensure the agency’s consistency and effectiveness in
     performing essential incident response functions. These should include 

           Ø improving strategies and procedures,

           Ø establishing an objective mechanism for evaluating incident response,
             and

           Ø     periodically reviewing regional incident response programs.


B. LICENSEES LACK AN UNDERSTANDING OF NRC'S INCIDENT RESPONSE
   PROGRAM

     While inconsistencies in NRC's performance to support licensees occurred, NRC
     generally provided adequate support to licensees during the incident response
     exercises that OIG observed. However, many licensees OIG interviewed are not
     familiar with NRC's incident response program because the NRC’s outreach
     efforts have not been sufficient and the frequency of agency participation in
     exercises is inadequate. Therefore, without a cohesive program, some activities
     between NRC and the licensee during a real incident may not be coordinated as
     required by the NRC Incident Response Plan.


                                         15
                                              Audit of NRC’s Incident Response Program



Background

Since the 9/11 attacks on the World Trade Center and the Pentagon, much has
been done to improve prevention, preparedness, response, recovery, and
mitigation capabilities and coordination processes across the country. NRC
recognizes that a successful incident response management operation requires
effective and efficient coordination across the broad spectrum of organizations
and activities.

According to the NRC Incident Response Plan, the NRC must be ready to
support and assist the licensee by (1) monitoring the incident to be ready to
advise the licensee based on NRC's assessment of the situation, (2) locating and
obtaining needed expertise and equipment, (3) communicating and coordinating
with applicable Federal, State, local, and tribal agencies, conducting an
independent assessment of potential offsite consequences, and (4) providing
assistance and recommendations concerning any protective measures. Both the
NRC and the licensee must be prepared to cooperate in all their activities with
State, local, tribal, and Federal agencies that have related responsibilities.

NRC’s Incident Response Directorate is responsible for coordinating incident
response exercises and supporting an outreach program to ensure that State
organizations and licensees are aware of the resources of the NRC and other
Federal agencies that are available to support them during an actual event.
Additionally, this Directorate is responsible for maintaining plans and procedures
to ensure that the overall Federal response is coordinated. Furthermore,
regional offices are also expected to have an outreach program to provide
information on incident response issues to State and regional Federal
organizations and to licensees.

NRC’s Support for Licensees During Incident Response Exercises Is
Generally Effective

Generally, NRC provided adequate support to licensees during four exercises
observed by OIG. However, inconsistencies in evaluating licensee actions and
projecting incident consequences and plant status occurred as described earlier
in this report. For instance, during one exercise, NRC concurred with the
licensee's protective action recommendations, but had not yet produced any
dose projections to form an independent validation of the licensees’
recommendations. Nonetheless, licensee representatives said their experience
in working with NRC in response to an alert was positive, communication was
good, and the NRC responders were very knowledgeable and focused on
problem solving.

Licensees Lack Familiarity With NRC’s Incident Response Program

Licensees at many plants that OIG contacted lack an understanding of NRC's
incident response program because agency outreach efforts have not been
sufficient and licensees have had few opportunities to exercise with NRC
headquarters and the regions.




                                16
                                                                          Audit of NRC’s Incident Response Program



                  Based on interviews with licensee representatives, many of those licensees do
                  not have an understanding of NRC's activation modes or how NRC operates
                  during an event. For instance, many of those licensees are not familiar with how
                  NRC's incident response program is organized into teams and the role of each
                  team.

                  Additionally, many licensee representatives OIG interviewed said that they did
                  not know what to expect when NRC arrives on site to respond to an incident.
                  They could not describe the number or kinds of NRC personnel that may be
                  deployed with the site team24 in response to a general emergency and had never
                  experienced NRC sending a site team. Additionally, those licensee
                  representatives were not familiar with NRC's responsibilities to validate dose
                  assessments during an incident response. Licensee representatives at one plant
                  said they would not know where NRC staff would fit in the licensee's emergency
                  offsite facility. Licensee representatives are not sure what questions NRC would
                  ask, what type of support or guidance NRC could provide, or how much time
                  plant staff would be expected to spend with NRC responders.

                  While some licensee representatives knew who their NRC contacts or
                  counterparts would be in the region and in headquarters, other licensee
                  representatives did not know the position and role of their NRC incident response
                  contacts. In some cases, licensees’ representatives said they did not know to
                  whom they were talking during incident response exercises. During one
                  licensee representative's experience in responding to a real event, the licensee
                  did not realize that NRC headquarters had changed shifts and that its "cast of
                  characters" had changed.

                  Outreach Efforts Insufficient

                  Some licensees lack familiarization with NRC's incident response program partly
                  because outreach efforts have been insufficient and because turnover in licensee
                  response staff results in the need for additional outreach meetings for new staff.
                  Few licensees interviewed by OIG had ever received an overview of or been
                  briefed on NRC's incident response program. When OIG provided a brief
                  overview of NRC's incident response program during a visit to one plant, it was
                  the first time licensee representatives in attendance had received this
                  information. Absent opportunities to participate in an exercise with NRC
                  headquarters and/or regional participation, licensees said that it would be helpful
                  if NRC provided (1) briefings on its incident response program, (2) the ability to
                  observe exercises at other plants, (3) tours of NRC's incident response centers,
                  and/or (4) videotape or web-based programs that provide an overview of NRC's
                  incident response program.

                  NRC management recognizes that because of limited resources and external
                  demands to participate in the development and revision of Government-wide and
                  agency-specific incident response guidance, the agency did not achieve the level
                  of outreach desired. In a May 4, 2004, memorandum from the Executive Director
                  for Operations to the Commission, the Executive Director for Operations commits

24
  Under expanded activation the appropriate regional office sends a site team to the site of the accident to evaluate
the incident, plant status and licensee response actions, to assess licensee performance, and if needed, request
additional support and provide support to other response organizations (State and local governments).

                                                         17
                                              Audit of NRC’s Incident Response Program



the Office of Nuclear Security and Incident Response, the Office of Nuclear
Reactor Regulation, the Office of State and Tribal Programs, and the regions to
"work to enhance stakeholder understanding of NRC's Emergency Planning and
incident response roles and interactions through communiqués and increased
participation in various outreach venues." The enhancements are to be
incorporated in future outreach/training activities as opportunities permit.

Frequency of NRC Headquarters and Regional Participation in Incident
Response Exercises Not Adequate

Another reason licensees lack understanding of NRC's incident response
program is because they have not had enough opportunities to exercise with
headquarters and regional offices. Opportunities for plants to participate in
exercises that included headquarters and regional participation varied by region.
One region participates in four exercises each year. In that region, three
exercises are conducted at commercial power reactors and the fourth exercise is
held at a fuel cycle facility. Since that region has eighteen commercial power
reactors and the region participates in three commercial power reactor exercises
each year, commercial power reactors in that region have an opportunity to
exercise with at least regional participation once every six years. In two regions,
licensee representatives interviewed by OIG said they could not recall the last
time NRC headquarters or the region had participated in one of the plants’
exercises. Dates given for the last exercise with headquarters for the remaining
plants visited by OIG varied from 1-½ years ago to as high as 11 years ago.
NRC management said that the agency established its intent to exercise at least
once every five years with each commercial power reactor in a memorandum
prepared many years ago. Management acknowledged that not all regions have
met this intent. Licensee representatives OIG interviewed expressed that NRC
should participate in more drills/exercises. They think that doing so would
improve communication of NRC’s role and expectations, as well as improve their
understanding of NRC’s response operations.

NRC’s and Licensees’ Incident Response May Not Be Effectively
Coordinated

Lack of outreach to familiarize licensees with NRC's incident response program
could result in ineffective and inefficient coordination between NRC and
licensees during the response to an actual incident. For incidents involving NRC-
licensed facilities and materials, successful incident response requires effective
and efficient coordination across the broad spectrum of organizations (Federal,
State, local and private organizations) and activities, as well as between NRC
and the licensees. Without increased outreach efforts to assure effective
coordination between NRC and the licensee, NRC may not be sure that the
licensees are taking the proper actions to protect the public from or minimize
harm from a radiological incident involving NRC-licensed facilities and materials.

Summary

Many licensees interviewed by OIG were not familiar with NRC's incident
response program. Licensees lack familiarity with NRC’s incident response
program because outreach efforts are not sufficient and the frequency of NRC


                                18
                                                   Audit of NRC’s Incident Response Program



     participation in exercises is inadequate. Therefore, NRC and licensee activities
     during a real incident may not be effectively coordinated as required by the NRC
     Incident Response Plan.

     RECOMMENDATIONS

     OIG recommends that the Executive Director for Operations:

     14.   Improve and expand outreach for licensees to enhance licensees’
           understanding of NRC’s Incident Response Program.

     15.   Establish and implement an agency-wide policy for the minimum frequency
           of exercising with each NRC-licensed power reactor.


C. NRC’S PROCESSES TO QUALIFY STAFF AND ENSURE READINESS TO
   RESPOND ARE NOT WELL DEFINED

     NRC’s incident response program does not maintain a well defined process for
     demonstrating staff are qualified and ready to respond to an incident because
     NRC management 

            1. has not developed a well defined, agency-wide training program to
               meet its commitment; and

            2. has an unreliable, decentralized system to track incident response
               training.

     Even though NRC believes it has responded effectively to actual events, some
     responders may not have received sufficient incident response training as
     evidenced during four exercises OIG observed. An adequate incident response
     training program and reliable system for tracking its completion are important to
     ensure NRC staff are qualified and ready to effectively respond to an incident.

     Background

     It is NRC’s policy to communicate to its employees the basic policies,
     requirements, and procedures necessary for the agency to comply with
     Executive orders, pertinent laws, regulations, and the circulars and directives of
     other Federal agencies. NRC prepares, issues, and revises directives and
     handbooks to meet the requirement that all Federal agencies have an internal
     management directive system.

     NRC MD 8.2 requires that NRC (1) provide headquarters and regional personnel
     with the level of training necessary to perform assigned incident response
     functions and maintain response readiness, and (2) coordinate agency
     participation in periodic exercises and drills at power reactor sites, fuel cycle
     facilities, and materials licensee locations. Exercises are conducted to practice,
     learn, and assess agency response procedures and to confirm and maintain the
     capabilities of NRC’s response personnel.



                                      19
                                                                       Audit of NRC’s Incident Response Program



                 Furthermore, NUREG-0845 Function 1, Maintain Response Capability, requires
                 NRC to maintain readiness through training personnel and maintaining
                 communication systems.

                 1. NRC’s Incident Response Training Program is Not Well Defined and
                    Not Standardized

                 NRC follows training requirements for incident response that are not well defined
                 and have not been promulgated as agency policy because management has
                 given training inadequate attention. Moreover, management has not clearly
                 defined incident response curriculum and the specific methods for assessing
                 proficiency, refresher training, and qualifications for incident responders.
                 Consequently, incident response personnel do not clearly understand training
                 requirements and the training program varies in approach, content, and method
                 of instruction. A well-defined training program that is consistently implemented
                 across the agency is needed to ensure NRC’s incident response performance is
                 effective.

                          Training Requirements Not Well Defined

                 In October 1995, NRC issued a Final Revised Training Program to regional
                 managers. The program identifies the minimum required courses for training.
                 The program includes a matrix that lists each team and each position within each
                 team, the required minimum training, and the frequency of the training. With the
                 exception of requiring resident inspectors to participate in drills (discussed later in
                 this report), individuals must complete general response training, team position
                 training and participate in a drill to be considered qualified to hold an incident
                 response position. The matrix requires that these training activities be
                 completed every two years. Additionally, the matrix recommends that certain
                 responders take Response Technical Manual Overview training, Radiological
                 Assessment System for Consequence Analysis training, and Federal
                 Radiological Monitoring and Assessment Center (FRMAC)25 training.

                 In July 2002, NRC headquarters management distributed a draft of Minimum
                 Requirements for Incident Response Team Qualification (draft Minimum
                 Requirements) to regional administrators and certain headquarters directors.
                 The goal in developing the minimum requirements was to provide program office
                 expectations for minimum training and qualifications for both headquarters and
                 regional response personnel. When finalized, the agency intended for this
                 guidance to supersede all previous guidance on this subject and form the basis
                 for upcoming revisions to the incident response training section of NUREG-0728,
                 NRC Incident Response Plan. However, NRC never finalized its draft Minimum
                 Requirements and did not incorporate them into the revised NUREG-0728, NRC
                 Incident Response Plan.

                 Incident response personnel across the agency are confused about the minimum
                 training requirements. For instance, regional references for establishing regional
                 incident response training requirements varied. One Regional Procedure 1310B-
                 01R references the matrix included with the 1995 Final Revised Training

25
  FRMAC provides an operational framework for coordinating all Federal off-site radiological monitoring and
assessment activities during a response to a radiological emergency to support the Lead Federal Agency and
state(s).
                                                       20
                                               Audit of NRC’s Incident Response Program



Program. Staff in another region said that their minimum training requirements
were designed to exceed the 1995 training matrix. And, yet another region's
Regional Instruction 0430.1, Revision 1, Region I Incident Response Training
Program, states that requirements are aligned with the 2002 Incident Response
Operations Operating Plan.

Additionally, a long-time incident response staff member said that the 1995
training matrix was never used because of concerns about the amount of time
required for staff to maintain qualifications. Conversely, another incident
response member stated that while the matrix met with resistance from the
regions, it was eventually implemented. Finally, the Incident Response
Directorate management said NRC currently follows the 2002 draft Minimum
Requirements. However, neither the 1995 Final Revised Training Program nor
the 2002 draft Minimum Requirements have been incorporated into MD 8.2 or
the NRC Incident Response Plan.

       NRC’s Incident Response Training Program Needs Additional
       Management Attention

NRC lacks a well-defined agency-wide training program because, until the 9/11
terrorist events, incident response training was not a priority for the agency and it
had received inadequate attention. According to staff, training for incident
response is not taken seriously and is low priority. Specifically, training is
considered a "softer need" that gets pushed off and may go unattended for a
long time. Additionally, training has not received the attention it needs because
the Incident Response Directorate has experienced high turnover at the section
chief level.

The absence of a well defined agency-wide training program has resulted in—

       Ø       unclear expectations and limited opportunities for refresher
               training,

       Ø       incident response training programs that vary across the agency,

       Ø       an informal qualification process, and

       Ø       inconsistencies in performance across the regions and from
               exercise to exercise (reported in Finding A).

           Unclear Expectations and Limited Opportunities for Refresher
           Training

NRC's refresher training requirements do not ensure incident responders
maintain skills for all positions for which they are qualified to perform. Refresher
training requirements for resident inspectors are vague and offered inconsistently
across the regions. While the 1995 Final Revised Training Program excluded
senior resident inspectors and resident inspectors from the requirement to
participate in a drill, the 2002 draft does not specify the same exclusion. Initial
incident response training is included with the resident inspector qualification
program, as well as an occasional expectation to participate in exercises.
However, most resident inspectors OIG interviewed believed that no incident

                                 21
                                              Audit of NRC’s Incident Response Program



response refresher training requirements exist or did not know what refresher
training was required. One inspector recalled a matrix that listed training
requirements, but said that the region could not support the number of hours
required. The inspector said training is an unfunded mandate that creates a
problem for the regions. Many resident inspectors said they receive refresher
training informally through periodic biannual counterpart meetings or participation
in drills. Other residents recalled reading procedures and signing a form
attesting that they read and understood the procedures.

Additionally, the resident inspectors interviewed said that they need more
opportunities to participate in exercises. Participation in exercises and drills is
used to practice, learn, and assess response procedures, and to confirm and
maintain the capabilities of NRC's response personnel both at headquarters and
in the regional offices. This was not the case for many of the resident inspectors
interviewed who said they had few or no opportunities to participate in or observe
exercises that included regional and headquarters participation. Resident
inspectors said that participating in exercises—

       Ø       helps them to understand what else is going on during an incident
               and see how they fit into the bigger response,

       Ø       allows a hands on opportunity to go through the mechanics of the
               response, and

       Ø       provides a valuable opportunity for NRC and the licensee to share
               information.

Also, resident inspectors suggested that it would be valuable to tour the regional
incident response centers and/or headquarters operations center and to observe
exercises involving headquarters participation at other plants.

The understanding of refresher training requirements and refresher training
opportunities also varies among responders at headquarters and in the regions.
At headquarters, one response team coordinator said that refresher training is
only provided if a major overhaul of team procedures occurs. Another team
coordinator said that members maintain their qualifications through participation
in exercises and no clearly defined continuing training requirements for incident
response exist. Staff in one region said that position-specific training (1) has
been deferred due to of lack of staff or (2) has been achieved through reading
procedures and participating in exercises. However, before each exercise, the
regions provide general response and position-specific training to those
participating in the exercise.

       Incident Response Training Programs Vary Across the Agency

NRC maintains multiple training programs that differ considerably and lack a
formal assessment of whether personnel have achieved proficiency in desired
areas. Each of NRC's regional offices maintains their own training program that
differs considerably in approach, content, and method of instruction resulting in –

       Ø       inefficiencies due to the cost to maintain and implement region-
               based training programs,

                                22
                                              Audit of NRC’s Incident Response Program



       Ø      differing levels of training and qualification of response team
              members between the regions,

       Ø      uncertainties in levels of incident response proficiencies, and

       Ø      no assurance that individuals trained in the same position in one
              region can transfer those skills to another region or headquarters.

Neither the 1995 Final Revised Training Program requirements nor the 2002
draft Minimum Requirements for Incident Response Team Qualifications
prescribe the content of the training program. Although headquarters has
developed incident response training modules, it does not require headquarters
or regional response coordinators to use or follow them when providing training.
Additionally, while the 2002 draft Minimum Requirements stated that the agency
is working with the regions and the Office of Human Resources to develop a
web-based, "standardized" general response training module to serve as an
introduction to the agency's incident response program, that effort has not been
completed. The agency plans to complete that effort during FY 2004.

In a 1999 self-assessment report, NRC staff made management aware of many
of these problems. Recommendations made in this report address several
quality and cost issues associated with responder response training and the
conduct of exercises. Among other things, the self assessment team
recommended that NRC –

       Ø      conduct an analysis to provide a firm basis for establishing NRC
              response requirements for NRC response functions and activities;

       Ø      establish and implement a well defined NRC responder training
              program on the basis of the analyzed training needs; and

       Ø      upgrade the response training program by --

                  §   establishing an NRC-wide attendance policy requiring
                      responders attendance at annual training,

                  §   scheduling training courses in advance for all NRC
                      responders,

                  §   conducting the fewest number of scheduled classes, and

                  §   conducting training to address immediate office needs.

As of May 5, 2004, a manager in the Incident Response Directorate said these
recommendations have not been implemented.

Also, NRC has not (1) developed standard competencies needed to demonstrate
satisfactory understanding of NRC’s general response or to qualify for each
position, (2) evaluated the effectiveness of the various instruction methods to
determine effectiveness, and (3) developed and implemented assessment
strategies to determine whether personnel are proficient in the desired areas.


                               23
                                              Audit of NRC’s Incident Response Program



       Informal Qualification Process for Incident Response Personnel

While NRC management believes the agency’s response to actual events
indicates that staff members possess adequate technical skills, no formal
process exists to certify that individuals have met minimum training requirements
before being added to rosters. Additionally, NRC does not require individuals
who have qualified for multiple response positions to demonstrate proficiency in
each position after initial qualification. The lack of a formal process to qualify
incident response personnel exists because the training program is not well
defined and varies across the agency. Therefore, team coordinators, team
directors, a regional administrator, or incident response coordinators determine
responders’ qualification. Moreover, they are not required to provide certification
or evidence that individuals meet minimum qualifications for positions before their
names are added to a call list. Consequently, NRC cannot be assured that all
individuals appearing on call lists possess the minimum knowledge, skills and
experience needed to perform incident response duties effectively.

       Conclusion

NRC's incident response program should maintain a system to ensure that
personnel from the regions and various levels within the agency and across
functional disciplines possess a minimum common level of training, currency,
experience, and capability for the incident response positions they fill. NRC
should develop and implement an agency-wide training program that would help
NRC ensure staff are qualified and ready to respond and that the response is
consistent and effective. The program should include:

       Ø       competencies and course curricula associated with NRC's incident
               response program,

       Ø       criteria and methodologies for assessing incident response
               competencies,

       Ø       criteria and methodologies for assessing performance during
               exercises,

       Ø       the most effective and efficient delivery of incident response
               training, and

       Ø       a formalized process for qualifying incident response personnel for
               each position, and a centralized system for tracking successful
               completion of training activities by individual and position.

RECOMMENDATIONS

OIG recommends that the Executive Director for Operations:

16.   Develop and implement a well-defined, agency-wide training program to
      meet incident response commitments.




                                24
                                              Audit of NRC’s Incident Response Program



2.    Multiple Systems Exist for Tracking Incident Response Training

Because responsibility for incident response training is assigned to headquarters
and the regions, NRC does not have an integrated system for tracking training.
Consequently, multiple systems exist and some are not reliable for determining
whether responders are qualified.

Headquarters and each region are responsible for maintaining their own training
records. Each system is maintained using different software applications and
contains different data. For instance, headquarters maintains training records in
a word processing application. One region maintains records using a database
application. Another region uses a program that was custom designed for
tracking incident response training requirements. The systems are not integrated
and cannot share information. Additionally, the current tracking system at
headquarters does not have the capability to effectively track position-specific
training or exercise participation by position.

The agency cannot rely on current tracking system to verify that individuals have
met the minimum position-specific training requirements to qualify for a specific
position. The existence of multiple, non-integrated tracking systems results in
inefficiencies and an ineffective program to ensure incident responders have
received the training needed to qualify or maintain qualifications to be ready to
respond to an incident.

RECOMMENDATION

OIG recommends that the Executive Director for Operations:

17.   Establish a centralized system for tracking successful completion of training
      activities by individual and position.

Summary

Even though NRC management is confident that responders have adequate
technical skills, some responders may not be qualified and ready to respond to
an incident because NRC’s incident response training program is not well
defined and systems for tracking incident response training are not reliable for
identifying qualified incident response personnel. Furthermore, by assigning
responsibility to headquarters and each region for maintaining incident response
training records, multiple systems for tracking have been created. As a result,
some responders may not have received sufficient incident response training to
prepare them to carry out their incident response functions as evidenced during
four exercises observed during this audit. NRC needs a well-defined, agency-
wide incident response training program and a centralized system for tracking
incident response training to ensure consistent and effective incident response
performance from incident to incident and from region to region.




                                25
                             Audit of NRC’s Incident Response Program




[Page intentionally left blank.]




              26
                                                      Audit of NRC’s Incident Response Program



IV. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations:

        1.     Establish a defined agency-wide incident response plan that includes
               standards for performance, delineation of the conduct of exercises and
               drills, and a well-defined objective mechanism for evaluating incident
               response during exercises.

        2.     Revise MD 8.2, NRC Incident Response Program Handbook to require an
               evaluation of incident response performance following each exercise.

        3.     Update NUREG 0845, Agency Procedures for the NRC Incident
               Response Plan, or incorporate relevant portions into other agency
               procedures.

        4.     Periodically review regional incident response programs to ensure NRC’s
               Incident Response Program is carried out consistently across the agency.

        5.     Establish a well-defined process for giving performance feedback to
               responders.

        6.     Exercise the deployment of headquarters and regional response staff as
               part of the agency’s Incident Response Program.

        7.     Develop team- and position-specific strategies and procedures for
               handling events at multiple sites.

        8.     Periodically conduct incident response exercises involving multiple sites.

        9.     Incorporate procedures for handling protracted events into incident
               response procedures.

        10.    Develop a more systematic approach to scheduling staff to cover a
               response to a protracted event.

        11.    Revise the NRC Incident Response Plan to better define the incident
               response to emergencies involving regulated fuel cycle facilities and
               nuclear materials.

        12.    Conduct routine exercises with each NRC-regulated fuel cycle facility.

        13.    Update Response Technical Manual Supplements for gaseous diffusion
               plants.

        14.    Improve and expand outreach for licensees to enhance licensees’
               understanding of NRC’s Incident Response Program.

        15.    Establish and implement an agency-wide policy for the minimum
               frequency of exercising with each NRC-licensed power reactor.


                                        27
                                            Audit of NRC’s Incident Response Program



16.   Develop and implement a well-defined, agency-wide training program to
      meet incident response commitments.

17.   Establish a centralized system for tracking successful completion of
      training activities by individual and position.




                              28
                                                     Audit of NRC’s Incident Response Program



V. AGENCY COMMENTS

       At an exit conference with agency senior executives held on August 16, 2004,
       senior executives requested an additional meeting with OIG staff for clarification
       on specific issues. Subsequent to that meeting, the agency provided OIG with a
       list of editorial suggestions, specific points of concern or points needing
       clarification. OIG met with agency managers and staff on August 25, 2004, to
       address the editorial suggestions, discuss specific points of concern, and provide
       clarification on the other points. Following that meeting, OIG revised the report,
       as appropriate, and shared a revised draft report with the agency. After
       reviewing the revised draft report, agency officials met again with OIG on August
       31, 2004 and expressed agreement with the findings and recommendations and
       chose not to provide a formal written response for inclusion in the report.




                                       29
                             Audit of NRC’s Incident Response Program




[Page intentionally left blank.]




              30
                                                       Audit of NRC’s Incident Response Program


                                                                                  APPENDIX A
SCOPE AND METHODOLOGY

       The objectives of this audit were to determine whether NRC’s incident response
       program (1) is performed in a timely and effective manner, (2) provides adequate
       support to licensees and (3) maintains readiness and qualifications of staff. To
       accomplish this, OIG reviewed Federal regulations, Federal incident response
       guidance, NRC management directives and other relevant agency program
       documentation and correspondence. Auditors interviewed NRC headquarters
       and regional officials, including staff in the Office of Nuclear Security and Incident
       Response, the Incident Response Directorate, each of NRC’s four regions and
       resident inspectors at eight commercial nuclear power reactor sites. Auditors
       also interviewed licensee representatives at the same eight reactor sites and an
       official from the Federal Emergency Management Agency. Additionally, auditors
       visited incident response centers at each of NRC’s four regional offices. Internal
       control weaknesses have been noted and considered for reporting and/or
       additional work.

       OIG staged auditors to observe an incident response exercise at one power
       reactor in each of NRC’s four regions and one exercise at a gaseous diffusion
       plant. Auditors observed exercises from NRC’s headquarters and regional
       incident response centers and the licensees’ control room, technical support
       center and emergency offsite facilities. Not all aspects of NRC’s incident
       response were observed. Auditors compared NRC’s incident response
       performance during the power reactor exercises against agency procedures and
       observed agency critiques of its incident response performance during these
       exercises.

       This audit was conducted in accordance with generally accepted Government
       auditing standards and included a review of management controls related to the
       objectives of this audit. This audit was conducted from June 2003 to April 2004.

       Major contributors to this report were Russell Irish, Team Leader, Nuclear Safety
       Audits; Bill Kemper, Technical Advisor; Shyrl Coker, Audit Manager;
       Debra Lipkey, Senior Management Analyst; Yvette Russell, Senior Auditor; and
       David Ditto, Management Analyst.




                                        31
                             Audit of NRC’s Incident Response Program




[Page intentionally left blank.]




              32
                                                     Audit of NRC’s Incident Response Program


                                                                                APPENDIX B


CHANGES IN NRC’S REGULATION OF NUCLEAR POWER PLANTS
FOLLOWING THE THREE MILE ISLAND ACCIDENT

        NRC’s regulation and oversight of commercial nuclear power reactors
        significantly changed following the severe accident at the Three Mile Island
        commercial nuclear power plant on March 28,1979. Those changes included,
        but were not limited to, the following:

                  Ø A change in the function of the NRC Chairman and the
                    organization of the agency (e.g., transfer of authority to the
                    Chairman to declare, respond, issue orders, determine specific
                    policies, advise civil authorities and the public, and direct and
                    coordinate actions related to responding to an incident concerning
                    NRC-licensed facilities or materials)

                  Ø Expansion of NRC’s resident inspector program that placed at
                    least two inspectors living nearby and working exclusively at each
                    plant in the U.S.

                  Ø Establishment of the Systematic Assessment of Licensee
                    Performance program to integrate NRC observations, findings,
                    and conclusions about licensee performance and management
                    effectiveness (this has since been replaced by NRC’s Reactor
                    Oversight Process).

                  Ø Regular analysis of plant performance by senior NRC managers.

                  Ø Expansion of performance-oriented and safety-oriented
                    inspections.

                  Ø Use of risk assessment to identify vulnerabilities of any plant to
                    severe accidents.

                  Ø    Strengthening and reorganization of enforcement within NRC.

                  Ø Upgrading and strengthening of plant design and equipment
                    requirements.

                  Ø Identifying human performance as a critical part of plant safety.

                  Ø Enhancement of emergency preparedness to include immediate
                    NRC notification requirements for plant events and an NRC
                    operations center which is now staffed 24 hours a day. Drills and
                    response plans are now tested by licensees several times a year
                    and state and local agencies participate in drills with the Federal
                    Emergency Management Agency and NRC.

                  Ø    Expansion of NRC’s international activities to share enhanced
                      knowledge of nuclear safety with other countries in a number of
                      important technical areas.
                                       33
                            Audit of NRC’s Incident Response Program




[Page intentionally left blank]




              34
                                                                            Audit of NRC’s Incident Response Program


                                                                                                       APPENDIX C
NRC’S INCIDENT RESPONSE PROGRAM

                     In response to certain events1 involving NRC-licensed facilities or materials, NRC
                     activates its incident response program. Once the NRC incident response
                     program is activated, teams of specialists are assembled at the headquarters
                     operations center, the regional incident response center and/or the site of the
                     incident to obtain and evaluate event information and to assess the potential
                     impact of the event on public health and safety and the environment. NRC's
                     highest priority is to provide expert consultation, support, and assistance to State
                     and local public safety officials responding to the event.

                     NRC’s Incident Response Activation Levels

                     The NRC’s response to an event may range from routine follow-up activities to a
                     complete activation of the regional incident response center, headquarters
                     operations center and deployment of a site team. The NRC formally
                     characterizes its incident response modes as follows:

                     Ø                 Normal - Applies to the routine state of NRC operations and
                                       activities and includes all activities designed to maintain incident
                                       response readiness.

                     Ø                 Monitoring – The NRC goes to a heightened state of readiness
                                       for information acquisition and assessment. The regional office
                                       has the lead throughout the Monitoring Mode.

                     Ø                 Standby – The Standby Mode is initiated by a decision of the
                                       regional administrator in consultation with a headquarters
                                       executive team member. The purpose of Standby is to determine
                                       if there is likely to be a need to activate the full NRC response and
                                       to prepare for rapid activation should it be necessary. The
                                       criterion for Standby is that an event is sufficiently complex or

                     Ø                 uncertain that it requires more intensive monitoring and, if it
                                       involves a regulated facility, preparations to send a NRC team to
                                       the site and/or for potential terrorist activities. The region
                                       prepares, but does not yet dispatch, a team of specialists who
                                       could rapidly travel to the site if needed.

                     Ø                 Initial Activation – The Initial Activation Mode is initiated by a
                                       decision of an executive team member in consultation with the
                                       regional administrator. The criteria for Initial Activation may
                                       include the following:




1
    Incidents that threaten the public health, safety or the environment.
                                                             35
                                                                          Audit of NRC’s Incident Response Program




                                    §    licensee declaration of a site area emergency or general
                                         emergency,

                                    §    judgment by an executive team member that the potential for
                                         increasing risk requires an NRC onsite response team as soon
                                         as possible,

                                    §    the threat level is escalated to Red2, or

                                    §    judgment by the executive team member that a full executive
                                         team, led by the Chairman, is necessary to manage NRC
                                         response to an incident.

                                    NRC dispatches its site team for face-to-face coordination with
                                    licensee, State and local response officials, and other Federal
                                    response teams.

                  Ø                 Expanded Activation – The Expanded Activation Mode is
                                    initiated by a decision of the executive team director following
                                    arrival of the NRC site team at the licensee’s site. The decision is
                                    made after receipt of a report from the regional administrator that
                                    the site team is prepared to perform NRC response activities. The
                                    regional administrator at the incident site is designated as the
                                    NRC director of site operations. The NRC site team has the lead
                                    throughout the Expanded Activation mode.

                  Ø                 Deactivation – The Deactivation Mode is initiated by the decision
                                    of the executive team director in consultation with the director of
                                    site operations. The purpose of Deactivation Mode is to ensure
                                    that appropriate follow-up actions are assigned and scheduled.
                                    The criterion for Deactivation is that the risk or potential risk to the
                                    public no longer requires a significant onsite presence by the
                                    NRC. Response operations during the early part of this Mode are
                                    similar to those during Standby mode, except that the NRC site
                                    team may remain active.

                  These modes are dependent upon the licensee event classification and an
                  independent NRC assessment of relative severity or uncertainty of incident
                  conditions. The NRC may sometimes enter a response mode for a non-
                  emergency event or in response to a non-reportable event.

                  NRC Response Teams and Participants

                  NRC organizes its incident response program at headquarters and the regions by
                  teams. he NRC Chairman, or his/her designee, directs NRC’s overall response
                  to any incident. During a response, the Chairman is identified as the director of
                  the headquarters executive team. A regional administrator, or his/her designee,

2
 The Office of Homeland Security has developed a Homeland Security Advisory System to provide a comprehensive
and effective system to disseminate information regarding the risk of terrorist attacks to Federal, State, and local
authorities and the public. This system includes five color-coded threat conditions with a description of corresponding
actions at each level. The condition of “Red” indicates “Severe Condition,” or severe risk of terrorist attack.
                                                         36
                                                                           Audit of NRC’s Incident Response Program



                    directs NRC’s response at the regional level. Under Expanded Activation, a site
                    team is established and the director of site operations3 takes over as the lead for
                    NRC’s response under specific authorities delegated by the Chairman and
                    response activities are directed from the site rather than from headquarters.

                    The following is a partial list of the response teams and participants.

           HEADQUARTERS                                              REGIONAL AND SITE PARTICIPANTS
           Headquarters Executive Team                                Director of Site Operations
           Headquarters Support Teams                                 Site Team
           Headquarters Operations Officers                           Resident Inspectors
           Emergency Response Officers                                Base Team
           Emergency Officers                                         Regional Duty Officer
           Protective Measures Team                                   Recovery Team
           Reactor Safety Team
           Fuel Cycle Safety Team
           Safeguards Team
           Status Officer Team
           Response Coordination Team
           Operations Support Team
           News Center Team
           Liaison Team

                    Responsibilities for each team vary according to the level of activation. For
                    instance, during Normal Mode, the headquarters executive team is responsible
                    for deciding to escalate to activation, initiating appropriate notifications and
                    evaluating initial information. During Standby Mode, the Executive Team reports
                    to the operations center and is responsible for deciding to escalate to Activation
                    Mode and evaluating initial information. During Initial Activation Mode, the
                    Executive Team reports to the operations center, advises the Executive Team
                    director on appointment of a director of site operations, maintains awareness of
                    policy questions, advises the director on any imminent advice, recommendations
                    or direction to be given to licensee, reviews recommendations for protective
                    actions, assures consistency in liaison interactions and recommends de-
                    escalation to appropriate response mode.

                    Classification of Emergencies
                    The vast majority of events reported to the NRC are routine and do not require
                    activation of the incident response program. Licensed facilities have various
                    classes of emergencies. Both power and non-power reactor licensees utilize the
                    following four emergency event classes, in order of increasing severity:

                    Ø                 Notification of Unusual Event: Under this category, events are in
                                      process or have occurred which indicate potential degradation in
                                      the level of safety of the plant. No release of radioactive material
                                      requiring offsite response or monitoring is expected unless further
                                      degradation occurs.




3
    The Regional Administrator is designated as the NRC Director of Site Operations at the site.
                                                           37
                                   Audit of NRC’s Incident Response Program




Ø   Alert: If an alert is declared, events are in process or have
    occurred which involve an actual or potential substantial
    degradation in the level of safety of the plant. Any releases of
    radioactive material from the plant are expected to be limited to a
    small fraction of Environmental Protection Agency protective
    action guidelines.

Ø   Site Area Emergency: A site area emergency involves events in
    process or which have occurred which result in actual or likely
    major failures of plant functions needed for protection of the
    public. Any releases of radioactive material are not expected to
    exceed the Environmental Protection Agency’s protective action
    guidelines except near the site boundary.

Ø   General Emergency: A general emergency involves actual or
    imminent substantial core damage or melting of reactor fuel with
    the potential for loss of containment integrity. Radioactive
    releases during a general emergency can reasonably be expected
    to exceed the Environmental Protection Agency’s protective action
    guidelines for more than the immediate site area.




                     38
                                                      Audit of NRC’s Incident Response Program


                                                                                 APPENDIX D
INCIDENT RESPONSE FUNCTIONAL AREAS

        The 20 functional areas of NRC’s incident response program, as described in
        NUREG-0845, Agency Procedures for the NRC Incident Response Plan, are
        listed below:

               Function 1: Maintain Response Capability
               This function includes those tasks required to maintain readiness, such as
               training personnel and maintaining communications systems.

               Function 2: Man Emergency Communications Systems
               This function includes those tasks that assure proper receipt and handling
               of all communications during any response mode.

               Function 3: Evaluate and Categorize Initial Information
               This function includes those tasks that culminate in decisions regarding
               the severity of an event and the extent of the initial NRC response.

               Function 4: Decide to Escalate the NRC Response
               This function includes those tasks that address responsibilities both for
               recommending and for deciding on a need for greater NRC participation
               at any time after the initial response decision.

               Function 5: Enter Standby Mode
               This function includes those tasks that must be completed as soon as
               possible upon transition to Standby Mode.

               Function 6: Enter Initial Activation Mode
               This function includes those tasks that must be completed as soon as
               possible upon transition to Initial Activation Mode.

               Function 7: Enter Expanded Activation Mode
               This function includes those tasks that must be completed as soon as
               possible upon transition to Expanded Activation Mode.

               Function 8: Enter Deactivating Mode
               This function includes those tasks that must be completed as soon as
               possible upon transition to the Deactivating Mode.

               Function 9: Evaluate Incident and Plant Status
               This function includes those tasks needed to assure that NRC response
               personnel are taking such actions to have a complete and accurate
               overview of the evolution and status of the event at any time. This
               function requires a focus on the incident without regard to licensee or
               NRC response actions.

               Function 10: Evaluate Licensee Actions
               This function includes those tasks that provide an overview of the
               licensee’s actions with respect to mitigating the actual or potential
               consequences of an incident with respect to the adequacy of licensee
               recommendations to offsite authorities for protective actions for the public.
                                        39
                                       Audit of NRC’s Incident Response Program



This function requires a focus on whether preplanned actions and
guidelines are being followed as long as they are appropriate and that
they are modified quickly when not. The overall health and safety of the
public or response personnel is the basis on which appropriateness
should be judged.

Function 11: Project Incident Consequences and Plant Status
This function includes those tasks needed to develop timely projections of
the likely future course of an incident. This function requires a focus on
projections to help assure that the need for any actions to protect the
public or response personnel are foreseen in time to be effective.

Function 12: Advise, Assist, or Direct Licensee
This function includes those tasks needed to assure that advice or orders,
if required, are defined clearly, developed from the best facts and
projections, and transmitted accurately.

Function 13: Request Other-Agency Support
This function includes those task that clarify responsibilities among
participating agencies for identifying needs, requesting support, and
resolving conflicts in priorities or actions.

Function 14: Maintain Liaison with Congress, the White House, and
other Federal, State, and Local Agencies
This function includes those tasks that identify primary liaison
responsibilities for helping to assure that information exchange is
adequate, accurate, timely, and consistent.

Function 15: Inform Public and Monitor Public Information
This function includes those tasks needed to assure first, that NRC
information releases are complete, accurate, consistent, available to all
response personnel, coordinated with other response organizations, and
accurately relayed to the public; and second, that public reactions are
brought to the attention of NRC managers.

Function 16: Recommend Protective Actions for Public
This function includes those tasks that culminate in NRC decisions to
endorse licensee recommendations for protective actions or to
recommend additional offsite actions to protect the public health and
safety, based on technical criteria and NRC projections of plant status.

Function 17: Provide Administrative and Logistical Support
This function includes those tasks needed to assure the availability of
adequate transportation, housing, information resources, and any other
support needs of NRC personnel that may be identified during an
incident.

Function 18: Decide to Deescalate
This function includes those tasks that provide for an orderly reduction of
the NRC response.



                         40
                                       Audit of NRC’s Incident Response Program



Function 19: Review, Investigate, and Document Response Actions
This function includes those tasks that formalize the responsibilities for
assuring complete and timely documentary follow-up to an incident.

Function 20: Recover
This function includes those tasks that formalize the responsibilities for
assuring appropriate technical follow-up to an incident.




                         41
                         Audit of NRC’s Incident Response Program




[Page intentionally left blank.]




          42
                                                 Audit of NRC’s Incident Response Program


                                                                            APPENDIX E


OIG ANALYSIS OF NRC’S INCIDENT RESPONSE
PERFORMANCE DURING FOUR INCIDENT RESPONSE
EXERCISES AT POWER REACTORS AS COMPARED TO
AGENCY PROCEDURES FOR THE NRC INCIDENT RESPONSE
PLAN

    Methodology

    OIG staged auditors to observe NRC's incident response performance during an
    exercise at a power reactor in each of NRC’s four regions. Auditors were staged
    at the following five locations for all exercises, except exercise C.

    1.     Plant Control Room
    2.     Plant Technical Support Center
    3.     Plant Emergency Off-site Facility
    4.     Base Team at the Region Incident Response Center
    5.     NRC Headquarters' Incident Response Center (HQ)

    For exercise C, OIG auditors were staged at the plant’s control room, technical
    support center and emergency offsite facilities.

    Observations were recorded and compared against 19 of 20 incident response
    functions as defined in NUREG-0845, Agency Implementing Procedures for the
    NRC Incident Response Plan. In the tables that follow, NO indicates areas not
    observed, NM indicates areas observed that did not meet the performance
    expectations and M indicates areas observed that met performance
    expectations. The number under each column represents the number of
    instances where a task was not observed or determined to meet or not meet
    performance expectations. For instance, for the same task performed at
    headquarters, the base team and the emergency offsite facility may not have
    been observed in one location, may have been observed to be met in another
    location and/or not met at a third location.




                                    43
                         Audit of NRC’s Incident Response Program




[Page intentionally left blank.]




          44
                                                                                                                                       Audit of NRC’s Incident Response Program



                                                        EXERCISE EVALUATION
                                                             SUMMARY
                                                                                   EXERCISE A EXERCISE B EXERCISE C EXERCISE D ALL REGIONS
                                                                                   NO    M       NM NO M       NM NO M       NM NO M       NM   NO       M       NM
Function 2: Man emergency
communications systems -
includes tasks that assure       1. The HQ Operations Officer (HOO)
proper receipt and handling of   receives notification of problems at any time.      4       1    0   4    1    0   3    0    0   4    1    0    15          3    0
all communications during any    2. The HOO is then responsible for
response mode.                   contacting staff that can solve the problem
                                 and is knowledgeable about the specific
                                 plant or situation promptly; therefore,
                                 licensee notifications should be passed on
                                 the Region.                                         4       1    0   1    3    1   3    0    0   5    0    0    13          4    1
                                 3. HQ personnel are also notified under
                                 some conditions for mobilization of the entire
                                 NRC IRO, if necessary. While the HOO
                                 continues to answer calls, technical
                                 specialists at HQ, the primary Regional
                                 Office (RO), and the site are assigned as
                                 communicators.                                      4       1    0   3    1    1   3    0    0   1    4    0    11          6    1
                                 4. The Emergency Notification System (ENS)
                                 is used to obtain plant operations data and
                                 the Health Physics Network (HPN) for
                                 radiological and meteorological data.               3       2    0   1    4    0   2    1    0   3    2    0        9       9    0
                                 5. NRC personnel on site (e.g., the Resident
                                 Inspector) will relieve the licensee of
                                 communications duties with the agency.              4       1    0   5    0    0   1    2    0   3    2    0    13          5    0
                                                                        Subtotal    19       6    0   14   9    2   12   3    0   16   9    0    61      27       2
Function 3: Evaluate and          1. The HOO makes the initial decisions
categorize initial information -  about whether to and who to call. After that
includes tasks that culminate in his primary function is to place calls
decisions regarding the severity according to established procedures or as
of an event and the extent of the directed.                                          5       0    0   4    1    0   3    0    0   4    1    0    16          2    0
initial NRC response.             2. Regional personnel are called first
                                  because they are most knowledgeable of a
                                  particular plant or problem.                       3       2    0   3    2    0   2    1    0   3    2    0    11          7    0
                                  3. HQ and RO must have an on-call person
                                  at all times to assess the situation and
                                  categorize the event.                              5       0    0   4    0    1   3    0    0   3    2    0    15          2    1
                                  4. HQ contact plays a key role in mobilizing
                                  the entire NRC response organization
                                  quickly.                                           4       1    0   3    2    0   3    0    0   3    2    0    13          5    0
                                                                      Subtotal      17       3    0   14   5    1   11   1    0   13   7    0    55      16       1




                                                                                                 45
                                                                                                                                        Audit of NRC’s Incident Response Program



                                                          EXERCISE EVALUATION
                                                               SUMMARY
                                                                                    EXERCISE A EXERCISE B EXERCISE C EXERCISE D ALL REGIONS
                                                                                    NO    M       NM NO M       NM NO M       NM NO M       NM   NO       M       NM
Function 4: Decide to escalate      1. Transition from one response mode to
the NRC response - includes         another (1) must be deliberate and clear to
tasks which address                 all participants; (2) may be made between
responsibilities for                any of the response modes at any time and
recommending and deciding on        is not dependent on prior completion of other
a need for greater NRC              mode procedures; (3) should be based on
participation after the initial r   criteria as much as possible.                     3       2    0   2    2    1   3    0    0   0    3    2        8       7    3
response decision.                  2. Pre-designated HQ and Regional
                                    personnel have decision responsibilities to
                                    assure uniformity throughout all regions and
                                    to involve more senior officials. In all
                                    situations it is important that HQ and
                                    Regional personnel continue
                                    communications particularly regarding
                                    recommendations for agency action.                3       2    0   4    1    0   1    2    0   2    2    1    10          7    1
                                                                     Subtotal         6       4    0   6    3    1   4    2    0   2    5    3    18      14       4
Function 5: Enter Standby mode 1. Some staff members are directed to the
(SBM)- tasks that must be      NRC Operation Center (OC) at HQ and the
completed as soon as possible affected RO.                                            4       1    0   4    1    0   3    0    0   3    2    0    14          4    0
upon transition to this mode.  2. Some personnel and equipment may be
                               dispatched to the site from the primary RO if
                               a situation is complex or good site
                               communications is not readily available.               5       0    0   1    4    0   3    0    0   3    2    0    12          6    0
                               3. HQ and the RO monitor the situation and
                               selected personnel and specialists report to
                               the OC.                                                4       1    0   4    1    0   3    0    0   2    3    0    13          5    0
                               4. A Standby Team Leader (usually the
                               Regional Administrator (RA) or an ET
                               member) and other needed specialists are
                               named upon transition to SBM. Some
                               specialists may be called to the OC solely to
                               support the RO activities for following a long-
                               term event.                                            5       0    0   5    0    0   3    0    0   4    1    0    17          1    0
                               5. The decision to enter Standby is made by
                               the RA and an Executive Team (ET) member
                               in consultation with the emergency officer.
                               The RO is the lead unless the RA or ET
                               decides otherwise.                                     5       0    0   4    1    0   3    0    0   2    3    0    14          4    0




                                                                                                  46
                                                                                                                                       Audit of NRC’s Incident Response Program



                                                       EXERCISE EVALUATION
                                                            SUMMARY
                                                                                 EXERCISE A EXERCISE B EXERCISE C EXERCISE D ALL REGIONS
                                                                                 NO    M       NM NO M        NM NO M       NM NO M        NM   NO       M       NM
                                6. The RO will generally be the lead in
                                decision making. HQ and the region work
                                closely together to determine if and when the
                                situation warrants greater NRC involvement.        4       1    0   5    0     0   3    0    0   4    1     0    16          2    0
                                7. The key element is whether incident
                                conditions are worsening and the licensee’s
                                ability to control the situation is adequate.      4       1    0   1    3     1   3    0    0   2    1     2    10          5    3
                                8. Any press releases are issued by the RO,
                                unless agreed upon jointly by the RA and ET
                                member.                                            5       0    0   5    0     0   3    0    0   5    0     0    18          0    0
                                                                      Subtotal    36       4    0   29   10    1   24   0    0   25   13    2   114      27       3

Function 6: Enter Initial
Activation mode (IAM)- tasks
that must be completed as soon
as possible upon transition to 1. Full NRC response is quickly activated.          2       1    3   0    5     0   0    3    0   4    1     0        6   10       3
this mode.                     2. The Chairman (or designee) is Director of
                               NRC response at all times [during IAM] until
                               he delegates authority to a Director of Site
                               Operations (DSO).                                   2       3    0   3    1     1   2    1    0   4    0     1    11          5    2
                               3. Integrated full agency-wide response
                               includes                                           10       3    2   8    7     0   5    4    0   7    8     0    30      22       2
                               Personnel assume emergency organization
                               titles.
                               Pre-organized HQ and regional response
                               teams combine capabilities of specialists
                               from various organizational units.
                               Response procedures that are common
                               throughout the agency are used to promote
                               effective support of the primary RO.
                               4. HQ carries out most of the response
                               functions until a Site Team is established,
                               which can be as many as 3 to 10 hours
                               (longer under adverse weather conditions).          4       1    0   2    3     0   3    0    0   2    3     0    11          7    0
                               5. HQ leads activities using preplanned tasks
                               to permit maximum attention to unique
                               aspects of an incident. The RO will support
                               but most regional response personnel will be
                               en route to the site.                               4       1    0   3    2     0   2    1    0   5    0     0    14          4    0
                                6. Initial tasks should identify the problem,
                                trends, and begin specific analyses.               2       3    0   1    3     1   0    3    0   2    2     1        5   11       2




                                                                                               47
                                                                                                                                          Audit of NRC’s Incident Response Program



                                                       EXERCISE EVALUATION
                                                            SUMMARY
                                                                                   EXERCISE A EXERCISE B EXERCISE C EXERCISE D ALL REGIONS
                                                                                   NO    M       NM NO M        NM NO M        NM NO M        NM   NO       M       NM
                                7. Data is relayed by telephone to provide for
                                coordination of data requirements.                   2       3    0   1    3     1   3    0     0   3    2     0        9       8    1
                                8. Regional personnel arriving at the site
                                establish the initial Site Team and
                                establishes liaison with counterparts at HQ
                                and the RO.                                          3       2    0   2    2     1   1    2     0   3    1     1        9       7    2
                                9. The Director (Chairman) is the primary
                                NRC spokesman.                                       3       2    0   2    3     0   2    1     0   4    1     0    11          7    0
                                                                        Subtotal    32   19       5   22   29    4   18   15    0   34   18    3   106      81      12
Function 7: Enter Expanded      1. In a smooth transition the [NRC] activities
Activation mode - tasks         are similar to Initial Activation but are
completed as soon as possible   directed from the site.                              3       2    0   3    2     0   2    1     0   3    2     0    11          7    0
upon transition to this mode.   2. The DSO can utilize any NRC element for
                                support as he must be able to take charge of
                                all Federal activities onsite that affect the
                                public health and safety and coordinate all
                                Federal technical activities offsite.                4       1    0   4    0     1   2    1     0   2    3     0    12          5    1
                                3. The FBI is the lead for incidents involving
                                safeguards but NRC continues to monitor
                                actions that may affect the public health and
                                safety.                                              5       0    0   5    0     0   3    0     0   5    0     0    18          0    0
                                4. [IRO] procedures provide for incremental
                                delegation of authority to the DSO to avoid
                                overwhelming site personnel.                         5       0    0   4    1     0   3    0     0   5    0     0    17          1    0
                                5. The DSO becomes the primary
                                spokesman for the NRC upon appointment
                                to the position, the Director continues to
                                exercise authority not delegated, and the HQ
                                team supports both.                                  3       2    0   2    3     0   2    1     0   4    1     0    11          7    0
                                6. As more authority is delegated [to the ST],
                                the Executive Team may be partially
                                disbanded by the Director.                           4       1    0   3    1     1   3    0     0   5    0     0    15          2    1
                                7. Notifications are best done by staff
                                responsible for regular contacts at other
                                organizations.                                       4       1    0   4    1     0   3    0     0   5    0     0    16          2    0
                                8. Procedures emphasize continuity of NRC
                                response, so HQ specialists initially continue
                                tasks in support of the DSO.                         5       0    0   5    0     0   3    0     0   5    0     0    18          0    0
                                9. The DSO has more specific knowledge of
                                site conditions and will reorient and
                                supplement technical analyses as needed.             3       2    0   4    1     0   2    1     0   3    2     0    12          6    0



                                                                                                 48
                                                                                                                                       Audit of NRC’s Incident Response Program



                                                      EXERCISE EVALUATION
                                                           SUMMARY
                                                                                 EXERCISE A EXERCISE B EXERCISE C EXERCISE D ALL REGIONS
                                                                                 NO    M       NM NO M        NM NO M       NM NO M        NM   NO       M       NM
                                10. HQ provides technical support requested
                                by the DSO and continues to assist the
                                Director with functions not transferred to the
                                DSO.                                               3       2    0   2    1     1   2    1    0   2    3     0        9       7    1
                                11. The DSO is now the primary spokesman
                                for the agency.                                    3       2    0   2    3     0   2    1    0   3    2     0    10          8    0
                                                                    Subtotal      42   13       0   38   13    3   27   6    0   42   13    0   149      45       3
Function 8: Enter Deactivating 1. Deactivating from any of the above three
mode - tasks completed as soon modes results in the transfer of responsibility
as possible upon transition to to the RA under normal authorities and
this mode.                     responsibilities.                                   5       0    0   5    0     0   3    0    0   5    0     0    18          0    0
                                2. Enough capability must be left in place in
                                the event reactivation is necessary.               5       0    0   2    1     2   3    0    0   5    0     0    15          1    2
                                3. Few tasks of the HQ and RO Technical
                                Teams can be preplanned during this mode,
                                but are assigned at deactivation.                  5       0    0   5    0     0   3    0    0   5    0     0    18          0    0
                                4. Documentation will be accumulated and
                                lessons-learned analyzed.                          5       0    0   5    0     0   3    0    0   4    0     1    17          0    1
                                5. Residual functions of the HQ technical
                                teams are expected to return to normal in a
                                fairly short time.                                 5       0    0   5    0     0   3    0    0   5    0     0    18          0    0
                                6. If necessary, site team functions will be
                                taken over by a Recovery Team that may
                                continue for some time.                            5       0    0   5    0     0   3    0    0   5    0     0    18          0    0
                                7. The procedures must provide for
                                information flow similar to that during
                                Standby, except a sizable contingent may
                                remain on-site.                                    5       0    0   5    0     0   3    0    0   5    0     0    18          0    0
                                8. The agency’s deactivating activities may
                                return to normal gradually, but always by
                                specific decision so that the extent of NRC
                                participation is always clear.                     5       0    0   3    1     1   3    0    0   5    0     0    16          1    1
                                9. Activities in this mode must be closely
                                coordinated with the site team (and recovery
                                team, if applicable).                              5       0    0   5    0     0   3    0    0   5    0     0    18          0    0
                                10. The decision to deactivate or reactivate
                                is made by the DSO and Director in
                                consultation.                                      5       0    0   5    0     0   3    0    0   5    0     0    18          0    0
                                                                     Subtotal     50       0    0   45   2     3   30   0    0   49   0     1   174          2    4




                                                                                               49
                                                                                                                                          Audit of NRC’s Incident Response Program



                                                          EXERCISE EVALUATION
                                                               SUMMARY
                                                                                      EXERCISE A EXERCISE B EXERCISE C EXERCISE D ALL REGIONS
                                                                                      NO    M       NM NO M       NM NO M       NM NO M       NM   NO       M       NM
Function 9: Evaluate incident     Includes those tasks needed to assure that
and plant status-requires a focus NRC response personnel are taking actions
on the incident without regard to to have a complete and accurate overview of
licensee or NRC response          the evolution and status of an event at any
actions. [See specific tasks      time.
within the individual Team
Procedures (NUREG-0845,
Section III) associated with this
function.]                                                                              0       4    1   0    3    2   0    3    0   1    2    2        1   12       5
Function 10: Evaluate licensee Includes tasks that provide an overview of
actions-this requires a focus on licensee actions in mitigating the actual or
whether preplanned actions and potential consequence of the incident and
guidelines are being followed, if the adequacy of licensee recommendations
appropriate, and modified         to offsite authorities for protective actions for
quickly when not.                 the public.
Appropriateness should be
judged on overall health and
safety of the public and
response personnel. [See
specific tasks within the
individual Team Procedures
(NUREG-0845, Section III)
associated with this function.]                                                         0       4    1   0    4    1   1    2    0   1    1    2        2   11       4
Function 11: Project incident     Includes tasks needed to develop timely
consequences and plant status- projections of the likely future course of an
this requires a focus on          incident.
projections to help assure
actions to protect public health
and safety or response
personnel are foreseen in time
to be effective.[See specific
tasks within the individual Team
Procedures (NUREG-0845,
Section III) associated with this
function.]                                                                              2       2    1   1    3    1   2    1    0   3    1    1        8       7    3
                                  1While the NRC monitors an incident, the
Function 12: Advise, assist, or licensee may request or the NRC may
direct licensee - Includes tasks volunteer advice concerning diagnoses of
needed to assure that advice or critical problems, remedial courses of
orders are defined clearly,       actions, and additional precautionary
developed from the best facts measures.                                                 4       1    0   4    1    0   2    1    0   2    2    1    12          5    1




                                                                                                    50
                                                                                                                                        Audit of NRC’s Incident Response Program



                                                       EXERCISE EVALUATION
                                                            SUMMARY
                                                                                   EXERCISE A EXERCISE B EXERCISE C EXERCISE D ALL REGIONS
                                                                                   NO    M       NM NO M       NM NO M       NM NO M        NM   NO    M       NM
developed from the best facts    2. NRC integrates onsite and offsite activities
and projections and are          and information as coordinator of the entire
transmitted accurately.          federal technical response and may offer
                                 advice based on this broader perspective.           4       1    0   4    1    0   2    1    0   4    1     0    14       4    0
                                 3. NRC must also be prepared to direct,
                                 however infrequently, that certain specific
                                 action(s) be taken if, after thorough
                                 discussions with the licensee management,
                                 the NRC decides the action is necessary.            3       1    1   5    0    0   3    0    0   4    0     1    15       1    2
                                 4. Discussions may be initiated by either the
                                 licensee or the NRC, but three important
                                 concepts govern:                                    5       4    0   12   3    0   1    2    0   1    3     1    19   12       1
                                 The licensee is ultimately responsible for
                                 taking appropriate action to mitigate the
                                 consequences of an incident;
                                 The NRC must have a single voice when
                                 advising or directing the licensee; and
                                 Licensee management must be in a position
                                 to decide whether to accept or challenge the
                                 advice.
                                 5. Only the Director, or the DSO upon
                                 appointment, is empowered to advise or
                                 direct the licensee. At no time can both
                                 persons advise or direct the licensee, and
                                 the licensee will always be apprized of who
                                 has what authority.                                 5       0    0   3    2    0   3    0    0   3    2     0    14       4    0
                                 6. Other NRC personnel in contact with the
                                 licensee shall apprize their contacts that any
                                 discussions should not be construed as
                                 advice or direction, but only for the purpose
                                 of exchange of information and ideas.               5       0    0   5    0    0   2    1    0   2    3     0    14       4    0
                                                                      Subtotal      26       7    1   33   7    0   13   5    0   16   11    3    88   30       4
                                 1. Memoranda of Understanding (MOUs)
Function 13: Request other-      have been formalized between NRC and
agency support - These tasks participating agencies who may be called to
clarify responsibilities among   assist in the response, as well as less formal
participation agencies for       working agreements with other responding
identifying needs, requesting    agencies.                                           5       0    0   5    0    0   3    0    0   5    0     0    18       0    0
support, and resolving conflicts 2. In the Standby Mode, active support is not
in priorities or actions.        expected but other agencies might be
                                 approached for particular expertise.                5       0    0   3    2    0   3    0    0   5    0     0    16       2    0



                                                                                                 51
                                                                                                                                          Audit of NRC’s Incident Response Program



                                                          EXERCISE EVALUATION
                                                               SUMMARY
                                                                                      EXERCISE A EXERCISE B EXERCISE C EXERCISE D ALL REGIONS
                                                                                      NO    M       NM NO M       NM NO M       NM NO M       NM   NO    M       NM
                                    3. During the Initial Activation Mode,
                                    requests are likely to be those that are
                                    largely preplanned, such as DOE support.
                                    Requests should be provided by the Director
                                    so that he is fully aware of all such requests
                                    when talking with agency heads.                     3       2    0   4    2    0   3    0    0   5    0    0    15       4    0
                                    4. During the Expanded Activation Mode, the
                                    DSO may make specific requests of any kind
                                    to any agency                                       5       0    0   5    0    0   2    1    0   5    0    0    17       1    0
                                    5. The FEMA plan should be followed, if
                                    possible, to obtain logistical support.             5       0    0   5    0    0   3    0    0   5    0    0    18       0    0
                                    6. HQ may assist in acquiring support.              4       1    0   4    1    0   3    0    0   5    0    0    16       2    0
                                                                         Subtotal      27       3    0   26   5    0   17   1    0   30   0    0   100       9    0

Function 14: Maintain liaison       1. In general, HQ will maintain liaison with
with Congress, the White            the HQ of other federal agencies, Congress,
House, and other federal, state, and the White House throughout all modes,
and local agencies - Includes       who may aid site personnel with inquiries
tasks that identify primary liaison and other communications.                           4       1    0   3    2    0   3    0    0   4    1    0    14       4    0
responsibilities for assuring
                                    2. RO and site personnel will maintain liaison
information exchange is
                                    with their counterparts at other organizations.     4       1    0   4    1    0   3    0    0   1    4    0    12       6    0
adequate, accurate, timely, and
consistent.                         3. Liaison with State and local agencies will
                                    be in accordance with the State Emergency
                                    Plan.                                               5       0    0   5    0    0   3    0    0   4    1    0    17       1    0
                                                                           Subtotal    13       2    0   12   3    0   9    0    0   9    6    0    43   11       0
Function 15: Inform public and      1. All proposed press releases should have
monitor public information -        technical reviews by HQ, the regional office,
Includes tasks that assure; 1)      and site personnel, but only one (1)
that NRC information releases       approving authority can release the
are complete, accurate,             information. The approving authority for
consistent, available to all        each mode is Standby -Regional
response personnel,                 Administrator, Initial Activation -Director at
coordinated with other response     HQ, Expanded Activation -Director of Site
organizations, and accurately       Operations (DSO)                                    5       0    0   2    1    2   2    1    0   4    0    1    13       2    3
relayed to the public, and 2)
                                    2. The FBI should be consulted on press
that public reactions are brought
                                    releases for safeguards events.                     5       0    0   5    0    0   3    0    0   4    0    1    17       0    1
to the attention of NRC
managers.                           3. NRC is the spokesman for all Federal
                                    technical activities and FEMA for all other
                                    Federal activities.                                 5       0    0   5    0    0   2    1    0   4    0    1    16       1    1




                                                                                                    52
                                                                                                                                         Audit of NRC’s Incident Response Program



                                                          EXERCISE EVALUATION
                                                               SUMMARY
                                                                                     EXERCISE A EXERCISE B EXERCISE C EXERCISE D ALL REGIONS
                                                                                     NO    M       NM NO M       NM NO M       NM NO M       NM   NO    M       NM
                                   4. NRC should share all draft press releases
                                   with licensee, state or local government, and
                                   FEMA prior to release of a statement, so that
                                   any issues that could be clarified are
                                   identified before release to avoid confusing
                                   or misleading the public.                           5       0    0   4    0    1   2    1    0   4    0    1    15       1    2
                                                                        Subtotal      20       0    0   16   1    3   9    3    0   16   0    4    61       4    7
Function 16: Recommend             1. NRC should provide advice on appropriate
protective actions for public -    protective measures for the public to offsite
Includes tasks that culminate in   authorities.
NRC decisions to endorse
licensee recommendations for
protective action or to
recommend additional off-site                                                         4        0    1   2    2    1   3    0    0   3    2    0    12       4    2
actions to public health and       2. NRC shall monitor licensee measures and
safety, based on technical         their impact, and independently assess their
criteria and NRC projections of    adequacy, thereby providing an independent
plant status.                      basis for advising offsite officials.              4        0    1   3    1    1   2    0    1   3    2    0    12       3    3
                                   3. Information from multiple sources shall be
                                   collected, verified, analyzed, and evaluated
                                   by NRC to arrive at its own estimate of the
                                   situation and protective actions necessary.        4        0    1   4    0    1   2    1    0   5    0    0    15       1    2
                                   4. NRC’s methods and analyses for reaching
                                   their conclusions may be diverse (which is
                                   desirable) from other sources of advice (for
                                   example the licensee and state radiological
                                   health personnel), and should provide for:         4        0    1   3    1    1   2    1    0   3    2    0    12       4    2
                                   >Receipt and integration of enough
                                   information to form a clear technical basis for
                                   assessing and recommending actions to
                                   protect the public and response personnel;
                                   >Exchange of information and assessment
                                   models with licensees, states, Federal
                                   agencies, and others to discuss or explain
                                   the reasons for differences in method or
                                   conclusion, and to evaluate the significance
                                   of the differences;




                                                                                                   53
                                                                                                                                      Audit of NRC’s Incident Response Program



                                                       EXERCISE EVALUATION
                                                            SUMMARY
                                                                                  EXERCISE A EXERCISE B EXERCISE C EXERCISE D ALL REGIONS
                                                                                  NO    M       NM NO M       NM NO M       NM NO M       NM   NO    M       NM
                                 >Review of proposed recommendations with
                                 FEMA (unless time does not permit) to
                                 discuss logistical implications and, when
                                 possible, to permit a joint NRC-FEMA
                                 presentation of the recommendations to
                                 offsite authorities.
                                                                     Subtotal      16       0    4   12   4    4   9    2    1   14   6    0    51   12       9
Function 17: Provide
administrative and logistical
support - Includes tasks that    1. These requirements should be anticipated
assure the availability of       as much as possible and related information
adequate transportation,         should be collected in site-specific files
housing, information resources   maintained in the RO.                             3        1    1   4    1    0   2    1    0   4    0    1    13       3    2
and any other personnel needs    2. Standby mode: Site-specific file
during an incident.              information should be verified and corrected
                                 if necessary.                                     4        0    1   5    0    0   3    0    0   4    0    1    16       0    2
                                 3. Initial and Expanded Activation modes:
                                 Requires one person on initial Site Team that
                                 can identify and authorize administrative and
                                 logistical support needs.                         4        1    0   5    0    0   2    1    0   4    0    1    15       2    1
                                 4. After FEMA response personnel are in
                                 place, they should provide logistical support
                                 that is not preplanned or readily available.
                                 Backup plans must be ready if FEMA is not
                                 in a position to respond. HQ will assist the
                                 DSO in obtaining the support requested.           5        0    0   5    0    0   2    1    0   4    0    1    16       1    1
                                 5. Deactivating mode: HQ Technical Teams
                                 will support the Recovery Team, as
                                 requested.                                        5        0    0   5    0    0   3    0    0   4    0    1    17       0    1
                                                                       Subtotal    21       2    2   24   1    0   12   3    0   20   0    5    77       6    7
Function 18: Decide to de-       1. NRC response is reduced by deliberate
escalate - Includes tasks that   decisions by the most senior official directly
provide for an orderly reduction involved in each mode.                            5        0    0   4    0    1   3    0    0   5    0    0    17       0    1
of NRC response.                 2. De-escalation from the Deactivating Mode
                                 would most likely be a series of decisions,
                                 rather than a single decision, as individual
                                 functions are no longer needed.                   5        0    0   5    0    0   3    0    0   5    0    0    18       0    0
                                                                     Subtotal      10       0    0   9    0    1   6    0    0   10   0    0    35       0    1




                                                                                                54
                                                                                                                                           Audit of NRC’s Incident Response Program



                                                            EXERCISE EVALUATION
                                                                 SUMMARY
                                                                                       EXERCISE A EXERCISE B EXERCISE C EXERCISE D ALL REGIONS
                                                                                       NO    M       NM NO M       NM NO M       NM NO M       NM   NO    M       NM
Function 19: Review,                  1. Documentation can be written or taped,
Investigate, and document             such as Preliminary Notification, Status
response actions - Include task       Officer minutes and recorded conversations,
that formalize responsibilities for   and should be assigned as part of the
assuring complete and timely          decision to de-escalate.                          5        0    0   5    0    0   3    0    0   4    1    0    17       1    0
documentary follow-up to an           2. Scope of these tasks are not preplanned;
incident.                             it is left to the judgment of the Director and
                                      DSO to define and assign special
                                      investigative and reporting tasks.                5        0    0   5    0    0   3    0    0   5    0    0    18       0    0
                                                                           Subtotal     10       0    0   10   0    0   6    0    0   9    1    0    35       1    0
Function 20: Recover - Include        These technical tasks are likely to be
tasks that formalize the              required after and incident that warrants a
responsibilities for assuring         formal Deactivation Mode, and cannot be
appropriate technical follow-up       preplanned because of their intimate
to an incident.                       dependence on details of the incident.
                                      These procedures provide for the Director to
                                      receive a plan and schedule from the DSO,
                                      the Deputy Director, and others who played
                                      key roles in the active response. The
                                      Director must assure that the plan is
                                      consistent with requirements imposed by
                                      other authorities.                                5        0    0   5    0    0   3    0    0   5    0    0    18       0    0
TOTAL                                                                                  352   73      15 316 102    27 213   47    1 315   93   26   1196 315      69




                                                                                                     55
                                                                      Audit of NRC’s Incident Response Program


                                                                                                       APPENDIX F


SUMMARY OF NOTABLE INCONSISTENT INCIDENT RESPONSE
PERFORMANCE OBSERVED DURING INCIDENT RESPONSE
EXERCISES

        a.       Transition from One Activation Mode to Another
                                                                      Instances of Performance Expectations Not Met
                                                              Exercise A     Exercise B       Exercise C       Exercise D

Function 5: Enter Standby mode                                    0               1                0                  2
Function 6: Enter Initial Activation mode                         5               4                0                  3
Function 7: Enter Expanded Activation mode                        0               3                0                  0
Function 8: Enter Deactivating mode                               0               3                0                  1

                 When making the transition from one incident response mode to another, NRC
                 experienced problems with (1) evaluating initial information, (2) identifying
                 problems and trends and beginning specific analyses, and (3) transferring
                 authority from headquarters to the site team. For instance, while NRC was
                 entering standby mode during one exercise, the licensee was not communicating
                 effectively and NRC did not take action to mitigate the problem. Consequently,
                 NRC may not have collected all the information needed to fully assess the plant’s
                 status. During the same exercise, when entering initial activation, NRC
                 headquarters' responders asked the licensee to consider declaring a general
                 emergency when members of the protective measures team determined it was
                 not warranted. Asking the licensee to consider declaring a general emergency
                 before consulting with the protective measures team undermined the intended
                 interrelationships of the incident response organization. .

        b.       Evaluating Licensee Actions and Projecting Incident Consequences
                                                                      Instances of Performance Expectations Not Met
                                                              Exercise A     Exercise B       Exercise C       Exercise D

Function 10: Evaluate licensee actions                            1               1                0                  2
Function 11: Project incident consequences and plant status       1               1                0                  1
Function 16: Recommend protective actions for public              4               4                1                  0

                 During the four exercises observed, NRC’s response experienced challenges in
                 evaluating licensee actions, projecting incident consequences, or recommending
                 protective actions for the public. For instance, NRC concurred with the licensee’s
                 protective action recommendations without independently assessing the
                 licensee's measures during one exercise. Additionally, inadequate licensee
                 communication, an equipment failure and insufficient reference materials
                 obstructed the agency's ability to project incident consequences. During another
                 exercise, the NRC protective measures team coordinator stated that NRC
                 concurred with the licensee’s protective action recommendations based on a
                 review of the licensee’s process. However, NRC’s site team was unable to
                 produce any valid off-site dose projections throughout the exercise to form a
                 basis for an independent validation of the licensee's protective action
                 recommendations. Therefore, NRC had no sound basis for stating that they
                 concurred with the licensee's recommendations. At another exercise, NRC could


                                                      56
                                                                    Audit of NRC’s Incident Response Program



                 not be sure they had all information needed to make projections because of
                 ineffective licensee communications with the region and a problem with
                 communications equipment. These functions are essential to ensuring the
                 licensee is taking the proper actions to protect or minimize harm to the public and
                 the environment.

        c.       Informing the Public and Monitoring Public Information

                                                                    Instances of Performance Expectations Not Met
                                                            Exercise A     Exercise B       Exercise C       Exercise D

Function 15: Inform public and monitor public information       0               3                0                  4

                 During two exercises, NRC faced challenges in its ability to inform the public and
                 monitor public information. For instance, during one exercise when entering
                 initial activation mode, NRC did not satisfy the minimum staffing level and did not
                 integrate a full agency-wide response as required by NUREG-0845. The
                 minimum staffing level to enter initial activation mode requires that a public affairs
                 officer be positioned with the site team. For this exercise, regional management
                 chose not to send a public affairs officer. Rather, the public affairs officer
                 remained in the region and intended to communicate with the site team and the
                 public telephonically using a remote speaker. However, this communication
                 system did not function properly and was ineffective in providing this essential
                 communication between NRC and the public. Consequently, the site team did
                 not have a public affairs officer present at the emergency offsite facility to
                 recommend and prepare press releases, participate in joint press conferences,
                 and respond to press inquiries.




                                                       57
